<html>
<title> - H.R.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  H.R. ___, A DISCUSSION DRAFT ADDRESSING BROADBAND MAPPING AND DATA 
                               COLLECTION

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON TELECOMMUNICATIONS AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2007

                               __________

                           Serial No. 110-48


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
41-644                     WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

    JOHN D. DINGELL, Michigan,        JOE BARTON, Texas
             Chairman                     Ranking Member
HENRY A. WAXMAN, California           RALPH M. HALL, Texas
EDWARD J. MARKEY, Massachusetts       J. DENNIS HASTERT, Illinois
RICK BOUCHER, Virginia                FRED UPTON, Michigan
EDOLPHUS TOWNS, New York              CLIFF STEARNS, Florida
FRANK PALLONE, Jr., New Jersey        NATHAN DEAL, Georgia
BART GORDON, Tennessee                ED WHITFIELD, Kentucky
BOBBY L. RUSH, Illinois               BARBARA CUBIN, Wyoming
ANNA G. ESHOO, California             JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                 HEATHER WILSON, New Mexico
ELIOT L. ENGEL, New York              JOHN B. SHADEGG, Arizona
ALBERT R. WYNN, Maryland              CHARLES W. ``CHIP'' PICKERING, 
GENE GREEN, Texas                         Mississippi
DIANA DeGETTE, Colorado               VITO FOSSELLA, New York
    Vice Chairman                     STEVE BUYER, Indiana
LOIS CAPPS, California                GEORGE RADANOVICH, California
MIKE DOYLE, Pennsylvania              JOSEPH R. PITTS, Pennsylvania
JANE HARMAN, California               MARY BONO, California
TOM ALLEN, Maine                      GREG WALDEN, Oregon
JAN SCHAKOWSKY, Illinois              LEE TERRY, Nebraska
HILDA L. SOLIS, California            MIKE FERGUSON, New Jersey
CHARLES A. GONZALEZ, Texas            MIKE ROGERS, Michigan
JAY INSLEE, Washington                SUE WILKINS MYRICK, North Carolina
TAMMY BALDWIN, Wisconsin              JOHN SULLIVAN, Oklahoma
MIKE ROSS, Arkansas                   TIM MURPHY, Pennsylvania
DARLENE HOOLEY, Oregon                MICHAEL C. BURGESS, Texas
ANTHONY D. WEINER, New York           MARSHA BLACKBURN, Tennessee        
JIM MATHESON, Utah                    
G.K. BUTTERFIELD, North Carolina      
CHARLIE MELANCON, Louisiana           
JOHN BARROW, Georgia                  
BARON P. HILL, Indiana               

                           Professional Staff

 Dennis B. Fitzgibbons, Chief of 
               Staff
Gregg A. Rothschild, Chief Counsel
   Sharon E. Davis, Chief Clerk
   Bud Albright, Minority Staff 
             Director

                                  (ii)
          Subcommittee on Telecommunications and the Internet

               EDWARD J. MARKEY, Massachusetts, Chairman
MIKE DOYLE, Pennsylvania             FRED UPTON, Michigan
    Vice Chairman                        Ranking Member
JANE HARMAN, California              J. DENNIS HASTERT, Illinois
CHARLES A. GONZALEZ, Texas           CLIFF STEARNS, Florida
JAY INSLEE, Washington               NATHAN DEAL, Georgia
BARON P. HILL, Indiana               BARBARA CUBIN, Wyoming
RICK BOUCHER, Virginia               JOHN SHIMKUS, Illinois
EDOLPHUS TOWNS, New York             HEATHER WILSON, New Mexico
FRANK PALLONE, Jr., New Jersey       CHARLES W. ``CHIP'' PICKERING, 
BART GORDON, Tennessee                   Mississippi
BOBBY L. RUSH, Illinois              VITO FOSELLA, New York
ANNA G. ESHOO, California            GEORGE RADANOVICH, California
BART STUPAK, Michigan                MARY BONO, California
ELIOT L. ENGEL, New York             GREG WALDEN, Oregon
GENE GREEN, Texas                    LEE TERRY, Nebraska
LOIS CAPPS, California               MIKE FERGUSON, New Jersey
HILDA L. SOLIS, California           JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
Hon. Mike Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     5
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Heather Wilson, a Representative in Congress from the State 
  of New Mexico, opening statement...............................     7
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     8
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     8
Hon. J. Dennis Hastert, a Representative in Congress from the 
  State of Illinois, prepared statement..........................     8
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................     9
Hon. Lois Capps, a Representative in Congress from the State of 
  California, prepared statement.................................    10

                               Witnesses

 Larry Cohen, president, Communications Workers of America.......    12
    Prepared statement...........................................    15
    Answers to submitted questions...............................   108
Ben Scott, policy director, Free Press...........................    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................   137
Kyle McSlarrow, president and chief executive officer, National 
  Cable and Telecommunications Association.......................    45
    Prepared statement...........................................    46
    Answers to submitted questions...............................   119
Hon. Steve Largent, president and chief executive officer, CTIA..    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................   116
Walter McCormick, president and chief executive officer, United 
  States Telecom Association.....................................    67
    Prepared statement...........................................    69
    Answers to submitted questions...............................   123
George Ford, chief economist and editorial advisory board member, 
  Phoenix Center for Advanced Legal and Economic Public Policy 
  Studies........................................................    73
    Prepared statement...........................................    75
    Answers to submitted questions...............................   112
Brian Mefford, president and chief executive officer, 
  ConnectKentucky................................................    88
    Prepared statement...........................................    90
    Answers to submitted questions...............................   126


  H.R. ___, A DISCUSSION DRAFT ADDRESSING BROADBAND MAPPING AND DATA 
                               COLLECTION

                              ----------                              


                         THURSDAY, MAY 17, 2007

                House of Representatives,  
         Subcommittee on Telecommunications
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Edward J. 
Markey (chairman) presiding.
    Members present: Representatives Markey, Doyle, Inslee, 
Boucher, Stupak, Green, Upton, Hastert, Shimkus, Wilson, 
Pickering, Walden, Terry, and Barton.
    Also present: Representatives Whitfield and Blackburn.
    Staff present: Johanna Shelton, Colin Crowell, Tim 
Powderly, Maureen Flood, David Vogel, and Kyle Chapman.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Good morning, ladies and gentlemen. I would ask 
everyone if they could assemble so that we can proceed with 
this very important hearing.
    I want to begin by emphasizing that the legislation 
addressing broadband data collection and mapping issues is in 
draft form and we welcome suggestions for improvements to it. 
My goal is to work towards a bipartisan consensus bill, and I 
look forward to working with our Ranking Member Upton, full 
committee Ranking Member Joe Barton, Chairman Dingell, of 
course, and our other committee colleagues on this measure as 
we move forward.
    I believe at this point that there is a growing consensus, 
not unanimity, around the fact that current data collection 
methods used by the Federal Communications Commission are 
inadequate and highly flawed. Currently, the FCC counts a 
single broadband subscriber in a five-digit ZIP code as 
indicating the entire ZIP code has broadband availability even 
if the sole subscriber is a business and not a residential 
consumer. This can lead to highly inaccurate and overly 
generous notions of actual broadband availability, particularly 
in rural areas where ZIP codes are quite large. In addition, 
the Telecommunications Act compels the FCC to address the 
nationwide availability of advanced telecommunications 
capability, which Congress defined as having high-speed 
capability. The FCC implemented this provision and defined high 
speed in 1999 as meaning 200 kilobits per second. The problem 
is that the FCC has not kept pace with the times or the 
technology. Simply put, in 2007 terms, 200 kilobits per second 
is not high speed. The bill proposes increasing this tenfold to 
2 megabits per second. It is important to keep in mind that 
from an international perspective, 2 megabits per second isn't 
even that fast. For instance, in our recent hearing on 
international broadband issues, we learned that in the United 
Kingdom, British Telecom and dozens of other competitors use 
advanced technology to get significantly more speed out of 
existing copper wire connections than we do here, approximately 
8 megabits per second, and that they have plans to boost it to 
16 megabits per second very soon. In Japan, consumers can get 
50 megabits per second, so having the FCC go from 200 kilobits 
to 2 megabits for purposes of national high-speed broadband 
assessment is relatively modest in this context.
    In addition, under almost any set of measurements, the 
United States lags other nations not only in availability and 
speed, but also in value. The 50-megabit-per-second service in 
Japan, for instance, which is not even available to residential 
consumers in this country, is available to Japanese consumers 
for roughly $30. Here in the United States, consumers typically 
pay $20 for about 1 megabit of service and $30 to $40 for 
roughly 4 megabits of service. Now, all of these are advertised 
speeds, and depending upon the network and the time of day, the 
actual speeds consumers enjoy are often much lower, but 
measuring high-speed broadband in kilobits is akin to assessing 
broadband using horse-and-buggy metrics. A 21st century 
broadband strategy should not use a horsepower measurement of 
success.
    The state of knowledge around the status of broadband 
services in the United States also affects the ability of 
policymakers to make sound decisions. For instance, the Federal 
Government can do a much better job in reforming multibillion-
dollar grant and subsidy programs whether at the Rural 
Utilities Service or at the FCC if we have better data on where 
we truly need to target Government assistance. And similarly, 
States can focus limited State resources for economic 
assistance, computer adoption and broadband promotion if ample 
and accurate data is available indicating where such resources 
should be deployed. This is precisely what has happened in a 
State that is ironically more known for horsepower than 
broadband power: Kentucky. ConnectKentucky has been a wildly 
successful effort and has demonstrated the palpable benefits 
for mapping broadband for various public policy benefits.
    The risks of not developing national data will undermine 
our goal of achieving a national plan for universal, affordable 
broadband. This in turn adversely affects consumers in 
communities across the Nation. The benefits of higher speeds, 
lower prices and more choices for broadband services include 
greater economic opportunity, job creation, worker 
productivity, access to health care and educational resources, 
promotion of innovation and global competitiveness.
    I look forward to this hearing. I thank our witnesses for 
appearing today. I turn to recognize the gentleman from 
Kentucky, Mr. Whitfield, who is not a member of this 
subcommittee, but I know that he wants to welcome one of our 
witnesses.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Chairman Markey, thank you so much and 
Ranking Member Upton, I genuinely appreciate the opportunity to 
be here this morning, and I will say that I was a member of the 
subcommittee last Congress but not this Congress--they threw me 
off--but I do appreciate the great work that you all are doing 
and the leadership that you provide.
    I am really excited to be here this morning to have the 
opportunity to introduce Mr. Brian Mefford from Kentucky, who 
is the president and CEO of ConnectKentucky, and I am proud of 
that because ConnectKentucky is an initiative that was created 
in Kentucky. Brian led that initiative, working with the 
Governor's Office in Kentucky, and I believe that it can serve 
as a model for successfully addressing America's broadband 
initiative. This model was developed in Kentucky by 
ConnectKentucky, which is a nonprofit public-private 
partnership dedicated to accelerating broadband deployment and 
use across the entire State of Kentucky. Its mission is simply 
to ensure that all Kentucky communities and individuals have 
broadband access and the ability to complete in the global 
economy. Guided by that clearly stated mission, ConnectKentucky 
was able to craft and implement a comprehensive strategy, and 
as a result of that strategy in Kentucky today, 93 percent of 
households are connected to the Internet, and by the end of 
this year 100 percent of Kentucky households will be able to 
access broadband by the end of the year, and I think that is a 
remarkable achievement, and it was achieved primarily because 
of Brian Mefford and his organization and the great leadership 
that they provided in our State. So Brian, we welcome you 
today, and I want to thank the committee for allowing me to 
introduce him, and I know you will look forward to his 
testimony.
    Thank you very much.
    Mr. Markey. We thank the gentleman from Kentucky for paying 
us this special guest appearance to introduce our very special 
guest.
    The Chair now recognizes the gentleman from Michigan, Mr. 
Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman, and I too thank 
you for having this hearing today regarding the discussion 
draft of the Broadband Census of America Act of 2007.
    Today's hearing builds on the one we held in April on 
broadband lessons from abroad. Much of the focus of that 
hearing centered on the fact that OECD's most recent data on 
broadband deployment was flawed and vastly understated 
broadband's penetration in the United States. So I view the 
thrust of this legislation as an effort to get a better idea of 
U.S. broadband penetration.
    We are extremely fortunate to have such a distinguished 
panel of experts today, especially since one of our witnesses 
has direct experience and had great success in implementing a 
broadband mapping plan at the State level. It isn't often that 
we have the advantage of looking at a successful model such as 
ConnectKentucky, which we can learn from and implement in a 
bipartisan way on a national level, and it would behoove this 
committee and subcommittee to learn from the outstanding 
achievements of ConnectKentucky, which demonstrates perfectly 
how the Government can work with industry in a non-regulatory 
manner to create a public-private partnership that benefits 
industry and consumers and provides a catalyst to greater 
broadband investment. There is no need for us to recreate the 
wheel.
    As I have stated before, I am very supportive of the 
overall goal of this legislation and believe that the success 
of ConnectKentucky can be replicated on a nationwide basis, and 
I look forward to working with you, Mr. Chairman, to achieve 
that goal. However, I am not sure why we need to amend the 
definition of high speed in section 706, especially since your 
proposed change would exclude most wireless services and even 
some DSL. Since the FCC's 2004 data gathering order, the FCC 
form 477 has required facilities- based broadband service 
providers to categorize broadband connections into five 
categories with transmission speeds ranging from 200 kilobits 
per second to 100 megabits per second. So let us just require 
the reporting to reflect that increased granularity. After all, 
the 200 kbps figure is not a ceiling, and much of the service 
available today is already well above that. A simple inventory 
of all the speeds available will make that abundantly clear and 
help us improve those numbers, as well as promote development 
in unserved areas. I believe that section 3 of your bill 
requiring the development of broadband inventory maps will show 
graphically the unserved and underserved areas. I do question 
whether NTIA should be the developer of that map. I believe 
that the mapping should be done by a public-private partnership 
along the lines of which was done by ConnectKentucky, and I 
look forward to listening to Mr. Mefford perhaps discuss that 
in his testimony. The maps on ConnectKentucky's Web site are 
quite informative, and I believe that grants under section 4 
should go to these ConnectKentucky-type public-private 
partnerships. This model worked very well, and I don't see any 
reason to divert from a model that has demonstrated such 
success.
    Mr. Chairman, I look forward very much to working with you 
on the goals of this legislation, and I appreciate again you 
having the hearing today. I yield back.
    Mr. Markey. I thank the gentleman from Michigan.
    The Chair recognizes the gentleman from Pennsylvania, Mr. 
Doyle.

   OPENING STATEMENT OF HON. MIKE DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman, and thank you for 
holding this hearing on mapping.
    Mr. Chairman, I am reminded of one of my favorite Bazooka 
bubblegum jokes. Are you ready? Why do maps never win at poker?
    Mr. Markey. Why do maps never win in poker?
    Mr. Doyle. Because they always fold. All right. That wasn't 
that bad. Thankfully, that joke was written years ago.
    We know maps today, Mr. Chairman, are created digitally and 
many are available online, and as the subcommittee looks to 
promote broadband deployment and acceptance across the country, 
we need to know where it is available, how fast it is and how 
cheap it is. Maps are older than language itself, and the 
knowledge they contain has often instigated incredible changes. 
Dr. John Booth did not know what was causing London's cholera 
outbreak in the 1850s and so he pinned all the victims on a 
map. His studies of the pattern of the disease were convincing 
enough to persuade the local town council to disable the 
offending well pump, and the cholera was stopped in its tracks, 
thus creating the field of epidemiology.
    Luckily, our goals today are a little more modest than 
stopping a deadly disease. I just want to know who has access 
to fast broadband. Even in my urban and suburban district, 
there are places that don't have broadband competition. I hope 
with better information we can make better decisions about the 
Internet, our most critical information infrastructure. That is 
why I think there is a lot to like about this bill. Technology-
neutral legislation that doesn't disadvantage first movers who 
have faster speeds than others is almost always a good idea. 
ConnectKentucky is a great model, and maybe the bill needs to 
be more prescriptive and require that States follow that model. 
Perhaps the bill should also have a mechanism to revisit the 
speeds that we define as broadband every so often. Perhaps the 
legislation should also look at why people aren't buying 
broadband if it is available to them. Is it the price? Are they 
happy with dial-up? Is it that they don't have a computer at 
home or is it that they don't really have any providers in 
their area? I look forward to the witnesses' testimony on these 
points and more.
    Mr. Chairman, the maps that will be created under this bill 
might go down in history as some of the most useful information 
about telecommunications ever collected. Let us make sure that 
we get the data we need.
    With that, I yield back my time.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Illinois, Mr. 
Shimkus.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I do appreciate 
having this hearing, and to be honest with you, I have already 
learned a lot in just a few opening statements and some of 
these comments.
    Let me just tell you where I am coming from. I am glad Ed 
was here but there are parts of my district--where I live in my 
district, I drive north to get to Louisville, KY, so I border 
Kentucky. My district goes down to Paducah, and they do have a 
very successful program that we have been following, going from 
60 percent broadband penetration to 93 percent penetration in 
2\1/2\ years. That is now attempting to be modeled by a group 
that is represented by a friend of ours, former Member of 
Congress Glenn Poshard, who now is involved with Southern 
Illinois University, and they are doing a Connect SI, a Connect 
Southern Illinois, and they have kind of mapped out our area of 
coverage, but there are some questions. The question is what 
you raised, Mr. Chairman, in your opening statement, at what 
level, 200? I think ConnectKentucky is 750. You are proposing 
2,000. The question is, is a market competitive, what is the 
standard? There are all these issues that we need to hash out 
because in rural America, if we set the standard too high, we 
will disenfranchise the rollout of 750. So if you would work 
with us as we move this forward, this is an important thing, 
and I think southern Illinois is trying to meet these demands 
right now in a market-based competitive approach, and I yield 
back my time.
    Mr. Markey. No, of course, my relationship with rural 
America is those two stuffed cows in front of the Hilltop 
Steakhouse on Route 1 in my district, so of course I am going 
to be talking to the gentleman from Illinois and the other 
Members that represent rural districts.
    The Chair recognizes the gentleman from Texas, Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing on broadband mapping. As we have explored in previous 
hearings increasing broadband access is critical to our 
economy, and I want to commend our chairman for proposing 
legislation addressing the current problems of broadband access 
and mapping.
    Our district in Houston has fair access by national 
standards but still lags behind other parts of our city. Not 
only is access a problem, but cost is also a prohibitive 
factor. I am particularly interested in section 3 of the draft 
legislation. The FCC is also addressing this in a notice of 
proposed rulemaking it recently issued seeking comment on 
section 706, what data it collects. I think it is important 
that collection of this data is accurate and captures not only 
number of households passed, but also the number of broadband 
service providers available to the consumers as well as price. 
We need competition to drive down the prices, and this would 
ensure access doesn't just mean we have lines running by our 
house but everyone can connect to those lines. An important 
development for Houston and our district is municipal wi-fi. 
Houston recently approved a deal with the city and EarthLink 
for a wireless broadband network license agreement and a 5-year 
service agreement. EarthLink will build and maintain a wireless 
Internet network, and the project, covering 600 square miles, 
makes this wi-fi development the largest in North America. The 
company will provide a discounted rate of $10 per user per 
month or lower, depending on the competitive wholesale rate, 
for up to 40,000 low-income users. As wireless technology 
advances, broadband competition will not just consist of lines 
running to the home. This would help districts like mine that I 
represent by giving them multiple options of technology like 
WiMAX which could provide a more economical way to offer 
service in rural districts.
    One other issue I hope to hear about from Mr. Mefford today 
is your No Child Left Offline project. One of the major 
barriers to bringing broadband into the home isn't just running 
the lines or the cost of the service but the cost of the 
equipment, mainly the computer and getting online.
    Mr. Chairman, again I thank you for holding the hearing, 
and I look forward to the testimony.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I am going to waive an 
opening statement. I know we are going to vote here in about 8 
minutes.
    Mr. Markey. They have actually changed that if you----
    Mr. Walden. Well, I will still waive so we can get to the 
witnesses. Thank you.
    Mr. Markey. The gentlelady from New Mexico, Mrs. Wilson.

 OPENING STATEMENT OF HON. HEATHER WILSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mrs. Wilson. Thank you, Mr. Chairman. Thank you for holding 
this hearing and for bringing this issue forward. I think this 
is a really interesting context to provide information to try 
to get a standard basis for gathering that information to 
assist communities and States and even the Nation in planning 
but also to provide information to consumers on what may or may 
not be available and what it really means.
    I think we probably all share a common goal here, although 
we may not all agree on the strategies to achieve that goal, 
which is to deploy advanced telecommunications capability to 
all Americans. The key here are the words ``all Americans,'' 
not just the high income or the high population density areas 
but areas like rural New Mexico and low-income neighborhoods 
and our Nation's largest city, and so I think this idea of 
going at it through data and transparency and making things 
available easily to companies who may be interested in going 
after a market segment or rolling out new technologies and to 
consumers so that they know what the choices are is a good one. 
Now, there are going to be some things you need to work on, on 
how to structure this so we do get real usable information and 
we don't discourage the rollout of new technologies and we go 
across all technologies.
    I also look forward to hearing this panel today. I believe 
this is the first time in my memory that we have leaders of 
associations representing telecom and cable and wireless all 
here at the same time, and in order for this legislation to 
work, we have to go across all of the different technologies. 
So I look forward to hearing the testimony today and the 
responses to questions. I look forward to working on this piece 
of legislation.
    Thank you, Mr. Chairman.
    Mr. Markey. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.

   OPENING STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Inslee. I just left a discussion about Internet radio 
where a Government agency, at least in many of our views, 
didn't quite get it right on the copyright issue, and I pointed 
out how important it is to get it right, and I am really 
interested in your thoughts on how we get it right on the high-
speed definition issue, particularly looking at future 
technology. We tend to be behind technology here in the 
Government on occasion, and I would be very interested in your 
viewpoints about where that right number is looking into the 
future to the definition of high speed, and I just look forward 
to this conversation because we have to get that one right.
    Thank you very much.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Nebraska, Mr. 
Terry.
    Mr. Terry. I will waive.
    Mr. Markey. The Chair recognizes the gentlelady from 
Tennessee, Mrs. Blackburn.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I appreciate the 
opportunity to be able to sit in on the hearing today and I 
want to say welcome to the witnesses, and we do look forward to 
what you have to say.
    My State of Tennessee has recently formed a broadband task 
force that is going to be modeled on the ConnectKentucky 
program, so Mr. Mefford, I am looking forward to hearing your 
comments. I do have some questions about it. I am excited about 
the opportunities for public-private partnership. I am also 
interested in what our industry witnesses are going to have to 
say as they are working with the ISP providers to deploy this 
and to increase broadband penetration. It is good for our rural 
communities. It is good for economic development.
    I thank the chairman and the ranking member for their 
attention to the issue, and I yield back.
    Mr. Markey. The gentlelady's time has expired.
    Any other statements for the record will be accepted at 
this time.
    [The prepared statements follow:]

   Prepared Statement of Hon. J. Dennis Hastert, a Representative in 
                  Congress from the State of Illinois

     Thank you, Mr. Chairman.
     I would like to welcome the panel here today, and I look 
forward to hearing from the witnesses on how we should proceed 
with broadband mapping.
     Let us step back for a moment and ask the basic questions. 
What is the purpose of mapping out broadband, and what are we 
trying to achieve? Are we identifying broadband availability to 
serve those who do not have access? Or are we using broadband 
mapping as a backdoor attempt to regulate?
     I am the first to recognize, having more information is 
always better than having no information; but what kind of 
information do we need to achieve our primary goal of serving 
those who at present do not have access to broadband? We've 
heard in previous hearings that cable, phone, wireless and 
satellite providers are already making large investments in 
upgrading and deploying broadband. In fact, 100 percent of all 
AT&T customers in 22 States will have access to high speed 
Internet by the end of this year.
     Congress must look to ConnectKentucky as a model to 
achieve broadband coverage everywhere.
     We must be cautious that our goal to provide broadband to 
those without access does not lead to an overly regulatory 
regime. Congress must continue to promote policies that 
encourage investments in technology and not enact policies that 
will delay the rollout of broadband to consumers.
     Thank you and I yield back my time.
                              ----------                              


  Prepared Statement of Hon. Joe Barton, a Representative in Congress 
                        from the State of Texas

     Thank you, Chairman Markey, for holding this hearing.
     I particularly look forward to the testimony from our 
ConnectKentucky witness. By all accounts, ConnectKentucky has 
had remarkable success with broadband mapping. Through its 
efforts, broadband penetration in Kentucky has increased from 
60 percent to 93 percent in just the last 2\1/2\ years.
     Broadband mapping involves collecting data to identify 
where broadband is available and then targeting unserved areas 
for deployment. ConnectKentucky has worked collaboratively with 
industry through voluntary reporting to build a detailed map of 
broadband availability. The map has spotlighted untapped 
markets, leading the providers to deploy additional facilities 
and serve more people. ConnectKentucky attributes its success 
to the fact that it is not a Government agency but a non-profit 
organization funded through State, Federal, and private 
dollars. It does not regulate and keeps sensitive data 
confidential through non-disclosure agreements.
     The first question is, can the Nation use the 
ConnectKentucky model? And here are some more questions that 
need answers: Do we need to define ``broadband'' as a 
particular speed or simply take an inventory of the different 
technologies and speeds that are available? Should the focus be 
identifying capabilities, such as the ability to send e-mail, 
browse Web sites, and stream video? Are zip codes the right 
geographic units to measure? Is there one standard set of data 
to gather, or should the data vary by the type of technologies 
that different providers use and the designs of their networks? 
How do we minimize the data collection burden, and how do we 
protect sensitive information?
     There is no question is that better information is 
necessary. Indeed, our previous hearing on the data collected 
by the Organization for Economic Cooperation and Development 
demonstrated that rankings of countries tend to mislead rather 
than inform. A more accurate picture of broadband deployment in 
this country would reverse the inferiority complex many seem to 
be developing and plot the right course for continued 
improvement.
     I look forward to learning more today about what data we 
need to collect, how we should collect it, and what we can do 
with it. I yield back.
                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1644.001

[GRAPHIC] [TIFF OMITTED] T1644.002

    We now turn to recognize our very distinguished panel. It 
is one that I think, as the gentlelady from Tennessee 
mentioned, really covers a full spectrum of perspectives on 
these issues. Our first witness is Mr. Larry Cohen. Mr. Cohen 
is the president of the Communications Workers of America. He 
represents obviously tens of thousands of communications 
workers all across our country and is one of the most important 
voices in the communications industry. We welcome you, Mr. 
Cohen. Whenever you feel comfortable, please begin.

STATEMENT OF LARRY COHEN, PRESIDENT, COMMUNICATIONS WORKERS OF 
                            AMERICA

    Mr. Cohen. Thank you, Mr. Chairman, it is a pleasure to be 
here, and also members of the subcommittee. I think the 
bipartisanship that you addressed is critical to this and we 
believe at CWA that this is absolutely possible to establish 
policy in a bipartisan manner.
    I am the president of CWA representing 700,000 members, 
over half of whom work on telecom networks including wired, 
wireless, cable sectors as well as media workers and others 
directly affected by this.
    The purpose of this hearing, as the Chair has said, is to 
discuss broadband mapping and data collection. Good data is the 
foundation of good policy. We desperately need a national 
Internet policy to reverse the fact that our Nation, the 
country that invented commercial Internet, has fallen from 
first to 16th in the world in broadband adoption.
    Equally disturbing, Americans pay more for slower 
connection speeds than people in many other countries, and we 
have heard the reference to Japan where actually now 80 percent 
of households now have access to a fiber network with speeds up 
to 100 megabits with 50 as the standard. In general, the United 
States is stuck with a 20th-century Internet in the 21st 
century, and we have heard, too many Americans, especially 
those in rural areas or low-income households, aren't connected 
at all.
    Unfortunately, we don't even know the full extent of our 
problems because our data is so poor. We don't know where high-
speed networks are deployed, how many households and small 
businesses connect to the Internet, we don't know at what 
speeds and we don't know how much they pay. Without this 
information, we can't craft good policy solutions, and we fall 
further behind.
    The discussion draft of the bill, Broadband Census of 
America Act, is a good step forward to fill this information 
void. As we know, the draft bill would require the FCC to 
upgrade its definition of high speed to not less than 2 
megabits download and 1 megabit up, a standard used in many 
other countries. CWA supports this provision. The FCC has not 
changed its definition of high speed in 9 years, a lifetime in 
the Internet. Under the FCC's current definition of 200 
kilobits per second in one direction, it takes 17 hours to 
download a movie.
    Mr. Chairman, CWA has a few recommendations to improve this 
section. First, the FCC, as has just been noted, should be 
instructed to revise this definition periodically. In fact, 
there is no good definition. Second, the FCC should continue to 
collect data at all speed levels to measure progress over time. 
Finally, some have suggested establishing a new definition of 
second-generation broadband pegged to a data rate that would 
reliably transmit full-motion, high-definition video. This is 
also worth considering.
    CWA also supports language in the draft bill requiring the 
FCC to collect and evaluate broadband deployment at a much more 
granular level, down to the ZIP code of nine digits. As the GAO 
has pointed out, the FCC's current five-digit ZIP code 
methodology is inadequate in rural areas. A five-digit ZIP code 
can cover many, many miles. Moreover, the FCC's methodology 
tells us almost nothing about where infrastructure is deployed.
    As a remedy, the draft bill instructs the NTIA to create a 
detailed broadband map of the Nation. The interactive map would 
be publicly available on the Web. CWA strongly supports Federal 
efforts to create a broadband map that is accessible to the 
public. The map will help show policymakers and the private 
sector where there are deployment gaps and will measure 
progress towards national goals. In gathering this data, the 
privacy of proprietary information must be protected.
    The draft bill establishes a program of grants to States 
and communities for broadband mapping. This section of the 
bill, as it has been noted, is modeled in part on 
ConnectKentucky. However, ConnectKentucky went beyond mapping, 
and ConnectKentucky also facilitated deployment of grassroots 
technology planning teams in every county in the State, and we 
will hear more about ConnectKentucky in a minute.
    Mr. Chairman, the current language in the draft bill limits 
the States' grants to broadband mapping. This omits, as I 
noted, many important pieces of ConnectKentucky. We urge the 
subcommittee to expand the purpose of the grants to include 
technical assistance, support for local community teams and 
support for programs to improve computer ownership and Internet 
access for unserved and underserved populations.
    CWA also supports provisions in the draft bill to require 
the FCC to survey the price, speed and availability of 
broadband in urban, rural and suburban areas and among 
different classes of customers. This information will help 
policymakers determine whether Internet services are 
affordable, which communities are left behind and where to 
target solutions.
    Over the past few months, CWA has posted a speed test on 
our Web site, www.speedmatters.org. About 70,000 people have 
taken the test to check actual download and upload speeds. We 
don't claim the results are scientific. We do believe this is 
the first national survey of Internet upload and download 
speeds. The results are troubling.
    As you can see from the chart attached to the back of this 
testimony, the average download speed was 1.9 megabits per 
second. At this rate, it takes an hour and a half to download a 
movie on broadband. The average U.S. download speed compares to 
61 megabits, and we have heard about the speeds in the other 
countries, and upload speeds were only 371 kilobits. The chart 
shows where we stand. Obviously our goal is to have a policy in 
this country that compares favorably to every one of these 
countries. It is not by accident, it is not just the market. 
Each one of these countries has a policy.
    [The prepared statement of Mr. Cohen follows:]

    [GRAPHIC] [TIFF OMITTED] T1644.003
    
    [GRAPHIC] [TIFF OMITTED] T1644.004
    
    [GRAPHIC] [TIFF OMITTED] T1644.005
    
    [GRAPHIC] [TIFF OMITTED] T1644.006
    
    [GRAPHIC] [TIFF OMITTED] T1644.007
    
    [GRAPHIC] [TIFF OMITTED] T1644.008
    
    [GRAPHIC] [TIFF OMITTED] T1644.009
    
    Mr. Markey. Thank you, Mr. Cohen, very much. I think you 
are going to have plenty of attention once we get to the 
question-and-answer period. Thank you.
    Our next witness, Mr. Ben Scott, is the policy director for 
Free Press. He testifies today on behalf of Free Press, the 
Consumers Union and the Consumer Federation of America. 
Welcome, sir.

      STATEMENT OF BEN SCOTT, POLICY DIRECTOR, FREE PRESS

    Mr. Scott. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to testify today. 
Together with other national consumer organizations, we have 
been studying deployment of broadband for years.
    We have always been limited by the FCC's inadequate data. 
In our view, the Commission has failed to fulfill its 
obligation under section 706 of the Telecommunications Act to 
monitor the deployment of broadband appropriately. We cannot 
evaluate problems that we don't measure or study, much less can 
we solve them. So it is with great relief that we see the 
committee considering a data-gathering bill. We don't have any 
time to lose. Even with the current data, as Mr. Cohen points 
out, we can see that the U.S. broadband market has significant 
problems in the three metrics that matter most: broadband 
availability, broadband speed and the value of broadband 
products to consumers.
    For starters, roughly 10 percent of American households 
still lack a terrestrial broadband connection. We pay more for 
a lot less bandwidth than our global competitors, and our 
markets lack the competition that has led to high broadband 
subscription overseas. The OECD ranks us 15th out of its 30 
member nations. Our growth rate relative to the OECD nations 
between 2005 and 2006 ranks us a humbling 20th. We can quibble 
with the details of international comparisons, but the general 
trend lines are not in error. Every couple of percentage points 
that we fall behind represents billions of dollars in consumer 
surplus that we leave on the table each year. We have a 
problem, so what is the problem? That is often hard to say. We 
can see the big picture outlines, but we don't have the 
detailed information necessary to draft the most effective 
solution.
    With the indulgence of Mr. Dingell, Mr. Upton and Mr. 
Stupak, I would like to use the State of Michigan as a case 
study to show you what I mean in real terms. If you look at the 
end of my testimony, you will find charts with all this 
information for every State in case you are curious about 
yours. Using FCC and census data, we know that the State of 
Michigan currently ranks 36th out of 50 in household broadband 
penetration rates. We know that since 2002 the State ranks just 
42d in the level of growth. Now, it is tempting to blame this 
on big rural areas, but only 25 percent of Michigan's 
population is rural, which is not far off the national average. 
We can see one very telling problem, which is that just 66 
percent of telephone lines in the State are capable of 
providing DSL service. On the cable side, I am sure this will 
do Mr. McSlarrow's heart good, the cable lines are 98 percent 
broadband capable at the end of 2005. However, over the last 6 
months the FCC's data shows that declining to 92 percent. The 
reasons are unclear. This matches another troubling trend in 
Michigan, which is that the overall broadband penetration shows 
a declining growth rate in contrast to other States.
    So what is going on here? What accounts for Michigan's 
broadband problems, and how should they be addressed? The fact 
is, we don't know, neither does the FCC, neither does any 
Federal agency. We don't have enough information to translate 
this State-level information into the local assessment that we 
need for solutions. We can implement backdoor-level policies, 
but we can't tackle the pressing local problems.
    So how do we start doing that? Well, we need detailed 
information at the ZIP code and ZIP+4 level. We need to know 
the price of speed of connections in different neighborhoods, 
towns and cities. We need to know local penetration rates. We 
need to compare different size towns and different towns that 
are the same size but with different providers. We need to know 
if broadband is simply unavailable or whether it is too 
expensive. We need to know how and why competition isn't 
working. Without this information, it is hard to target 
policies. If we treat the whole State alike, we are likely to 
only be partially right. So should we pour money into universal 
service programs without any data to properly direct it? Should 
we favor tax incentives for carriers without measuring past 
performance? Should we design technology training programs 
without knowing where to start them? We would be much better 
off if we measured the problems that we are going to solve.
    The bill under discussion would represent a very great leap 
forward in our knowledge about broadband markets and in my view 
would inevitably improve broadband policies. We strongly 
support all the tools it creates, but we would like to offer a 
couple of additional ideas. We recommend an evolving standard 
for high speed and broadband, as has been mentioned by other 
members and by Mr. Cohen, but we also recommend that the FCC 
collect data not just if you have one subscriber in a ZIP+4 but 
how many lines in a ZIP+4 are capable of providing broadband 
and of those lines, how many have a subscriber at the end of 
them. This information would revolutionize our understanding of 
local broadband markets and usher in the focused policies that 
bring us what we all want, investment and competition and the 
social programs necessary to increase broadband's adoption. 
Adoption is the goal of availability. I think that needs to be 
clarified.
    For consumers, the situation is clear. Since better 
broadband data means better broadband policies, we should move 
this bill with all deliberate speed. We look forward to working 
with the committee.
    I thank you for your time and attention, and I look forward 
to your questions.
    [The statement of Mr. Scott follows:]

    [GRAPHIC] [TIFF OMITTED] T1644.010
    
    [GRAPHIC] [TIFF OMITTED] T1644.011
    
    [GRAPHIC] [TIFF OMITTED] T1644.012
    
    [GRAPHIC] [TIFF OMITTED] T1644.013
    
    [GRAPHIC] [TIFF OMITTED] T1644.014
    
    [GRAPHIC] [TIFF OMITTED] T1644.015
    
    [GRAPHIC] [TIFF OMITTED] T1644.016
    
    [GRAPHIC] [TIFF OMITTED] T1644.017
    
    [GRAPHIC] [TIFF OMITTED] T1644.018
    
    [GRAPHIC] [TIFF OMITTED] T1644.019
    
    [GRAPHIC] [TIFF OMITTED] T1644.020
    
    [GRAPHIC] [TIFF OMITTED] T1644.021
    
    [GRAPHIC] [TIFF OMITTED] T1644.022
    
    [GRAPHIC] [TIFF OMITTED] T1644.023
    
    [GRAPHIC] [TIFF OMITTED] T1644.024
    
    [GRAPHIC] [TIFF OMITTED] T1644.025
    
    [GRAPHIC] [TIFF OMITTED] T1644.026
    
    [GRAPHIC] [TIFF OMITTED] T1644.027
    
    [GRAPHIC] [TIFF OMITTED] T1644.028
    
    [GRAPHIC] [TIFF OMITTED] T1644.029
    
    [GRAPHIC] [TIFF OMITTED] T1644.030
    
    Mr. Markey. Thank you, Mr. Scott, very much.
    Our next witness is Mr. Kyle McSlarrow. Mr. McSlarrow is 
the president and chief executive officer of the National Cable 
and Telecommunications Association, the association 
representing the cable industry. We welcome you back, Mr. 
McSlarrow. Whenever you are ready, please begin.

  STATEMENT OF KYLE MCSLARROW, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, NATIONAL CABLE AND TELECOMMUNICATIONS ASSOCIATION

    Mr. McSlarrow. Thank you, Mr. Chairman and Ranking Member 
Upton, Mr. Barton, members of the subcommittee. Thank you for 
having me here today.
    First, just to get to the bottom line, our industry 
supports the thrust of the discussion draft. I think there is 
no question, and I suspect everyone on this panel will agree, 
we need better data. We need better data for lots of reasons, 
and I don't think anybody is particularly happy with the 
current definition of 200 kilobits in terms of the FCC's 
analysis of what constitutes high-speed Internet access in 
America. But even if we do end up at the same point, I do think 
it is important to step back and think about the perspective we 
are bringing to get there. There are two ways of looking at 
this. One way is the way Mr. Cohen and Mr. Scott just 
presented, which is the sky is falling, we have got a 
``problem'' or maybe even several problems. I actually reject 
that. I realize I may be rowing against the tide here, but I 
think the more realistic way to look at this is, there are a 
lot of great things happening in this country in broadband. 
Now, we would say that cable modem service is available to 94 
percent of all American households. I think Ben used a figure 
that would have been 90 percent. So whether it is 6 percent or 
10 Americans who do not have broadband connectivity, we would 
say the way we should look at this is, speeds are getting 
faster, prices are dropping per megabit as we go along, 
broadband is extending, but there is a core part of the 
country, whether it is 6 or 10 percent, that we ought to be 
focused on. How do we get broadband connectivity with all the 
benefits, culturally, social and economically, to those areas, 
and I think it is important to define the problem we are trying 
to solve.
    There is no doubt in my mind, Mr. Chairman, that your 
discussion draft would go a long way towards addressing that 
goal, and therefore we support it, but I think as we move along 
in terms of trying to define what high-speed Internet access 
really is, I think we should be mindful to the point you said 
earlier in your opening statement, which is 200 kilobits might 
have made sense at one time. It hasn't kept pace with change, 
and the one thing that defines this market today is that it is 
changing so fast that we have to be careful about anything we 
actually put in legislation in terms of defining high-speed 
Internet broadband and what it means, and so as we work with 
you, Mr. Chairman, and we appreciate the offer to do so, I 
think we would want to make sure that the FCC and NTIA are 
given the flexibility to gather as much useful information for 
you all as policymakers as possible without unnecessarily 
restricting what those definitions look like, because what 
makes sense today may well look strange a couple of years from 
now.
    My final point, I think whether or not we agree on the 
speeds that are being delivered, there is no question that 
cable modem services across the Nation are offering the fastest 
speeds in the Nation, but just last week you may have seen that 
Brian Roberts, the CEO of Comcast, at our convention announced 
our plans in the next 2 or 3 years to start rolling out a new 
cable modem specification that would allow us to have download 
speeds well above 100 megabits per second. So it is not like 
the marketplace isn't addressing consumer demand, and it isn't 
like consumer experience isn't getting better. So whatever we 
do, we would just throw down a caution that we should make sure 
that we are not stopping those developments from taking place.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McSlarrow follows:]

                      Statement of Kyle McSlarrow

    Good morning Chairman Markey, Ranking Member Upton, and 
members of the subcommittee. My name is Kyle McSlarrow, and I 
serve as the president and chief executive officer of the 
National Cable & Telecommunications Association. NCTA is the 
principal trade association for the cable industry, 
representing cable operators serving more than 90 percent of 
the nation's cable television households and more than 200 
cable program networks. The cable industry is the Nation's 
largest broadband provider of high-speed Internet access after 
investing $110 billion over ten years to build out a two-way 
interactive network with fiber optic technology. Cable 
companies also provide state-of-the-art digital telephone 
service to over 10 million American consumers.
    Mr. Chairman, thank you for inviting me here to testify on 
your legislative proposal to improve the quality of information 
on broadband deployment and broadband adoption rates in this 
country. As you know, the cable industry supports sensible and 
targeted Federal initiatives designed to spur broadband 
deployment in rural areas of the country where absent some 
help, no private party would find it viable to build a high-
speed broadband network. We believe that the government can and 
should play a role in making certain that the incredible 
economic and social benefits of broadband connectivity are 
extended to households and small businesses in those unserved 
areas. In order to do that, it is vitally important to identify 
areas that lack access to broadband service. Identifying 
communities that lack broadband access and obtaining 
information about the factors that have inhibited broadband 
deployment to these areas can assist policy makers and the 
private sector in developing initiatives that will extend 
broadband service to all Americans. We therefore support your 
legislative initiative to collect data regarding the 
availability of broadband services across the country.
    However, Federal assistance for broadband deployment must 
be carefully targeted to unserved communities. Federal 
subsidies for broadband deployment in rural areas where private 
sector businesses are already offering service are unfair to 
those companies that take the risk to deploy service. Such 
market-tilting subsidies deter those who have invested from 
investing more, and they are a waste of limited Federal 
resources. Better, more meaningful data should allow us to 
avoid those unfortunate consequences.
    We believe that a nationwide survey of broadband service 
will show the significant progress that has been made in this 
country with respect to both broadband deployment and adoption. 
I outlined cable's perspective on broadband deployment in a 
recent letter to you and the members of this committee.
    In our view, America's current Organization for Economic 
Co-operation and Development (OECD) ranking does not tell the 
full story. And it should sound a cautionary note that we are 
currently examining how to ensure better data that actually 
provides the basis for sound policy decision-making in the 
United States but are often prepared to credulously assume that 
the same infirmities won't appear in international data.
    Mr. Chairman, broadband deployment in this country 
continues to grow at a robust rate. And the total number of 
consumers who have signed up for high-speed Internet service in 
the U.S. far exceeds that in any other country in the world--in 
fact, U.S. broadband users represent more than 30 percent of 
all the broadband connections in OECD countries.
    With respect to cable, which is the largest provider of 
broadband services in the United States, deployment is the 
result of our massive investment of risk capital in the last 
decade making it possible for us to provide high-speed Internet 
access, competitive voice service, and other advanced services. 
In fact, a recent report by Kagan Research shows that cable 
broadband service is now available to more than 94 percent of 
all U.S. homes.
    Due to a highly competitive marketplace, the availability 
of broadband service continues to grow while the price-per-
megabit continues to drop. And more broadband competition and 
investment is imminent. Research and Markets estimates that 
within five years, there may be as many as 20 million high-
speed wireless subscribers, and Parks Associates estimates that 
by the year 2011 there will be 2.5 million broadband-over-power 
line subscribers.
    While the price-per-megabit declines, broadband speeds 
continue to increase. When cable first offered high-speed 
Internet service as an always on alternative to dial-up access 
in the mid-1990s, we offered speeds of about 1-1.5 Mbps. Today, 
most cable operators offer broadband speeds of up to 5 Mbps and 
greater--and some, like Cablevision, offer speeds up to 50 
Mbps. Other cable operators offer a service that provides for 
``boosts'' of higher speeds ranging from as high as 10-20 Mbps 
on an on-demand, capacity-available basis. In addition, many 
cable operators will soon deploy a new architecture (DOCSIS 
3.0) which will allow speeds above 100 Mbps.
    As we stated at the outset, the cable industry supports 
legislation to collect data on broadband deployment in the U.S. 
We have some suggestions that we believe could further 
strengthen and clarify the Discussion Draft.
     Section 2(a) Definition of High-Speed Transmission--The 
current FCC definition of broadband--200 kbps downstream and 
200 kbps upstream--is clearly antiquated given the speeds that 
most broadband providers are offering consumers today. Most 
cable operators offer download speeds that exceed 5 Mbps. Some 
cable operators offer even higher download speeds while others 
offer tiers of service with different levels of downstream and 
upstream speeds. However, cable broadband is an asymmetrical 
service. What that means is that upstream speeds are usually 
lower than downstream speeds, which conforms to the way most 
consumers use the Internet today. For example a consumer needs 
very little bandwidth to send a command to a Web site which 
typically results in a large amount of data being downloaded to 
the consumer. As such, some operators that offer download 
speeds from 5 to 10 Mbps may well offer upload speeds that are 
less than 1 Mbps.
    The Discussion Draft would revise the definition of 
``advanced telecommunications capability'' to say that ``high 
speed'' means allowing the user to download at not less than 2 
Mbps and upload at not less than 1 Mbps. Under that definition, 
a high-speed Internet service that offers incredibly fast 
download speeds approaching 10 Mbps, but upload speeds less 
than 1 Mbps, would not qualify as a broadband service.
    We do not believe the definition in the Discussion Draft 
accurately reflects the broadband marketplace. In fact, given 
the continuing rapid advances in technology and changes in the 
way broadband service providers may configure their systems in 
order to meet consumer demand in a competitive marketplace, it 
probably makes little sense to include an exact definition of 
``high-speed'' in the statute--the definition could be outdated 
before the bill becomes law. Instead, Congress should encourage 
or mandate the FCC to periodically update its definition of 
broadband service, taking into account technology and 
marketplace trends.
    In any event, Congress should make clear that the FCC's 
obligation under section 706 is to promote broadband deployment 
by all providers, regardless of technology, and that the 
Commission must utilize the appropriate mix of deregulatory 
measures to fulfill that obligation.
     Section 3(g) Protection of Information--As I indicated 
earlier, broadband is a hotly competitive marketplace, and 
therefore deployment data is extremely sensitive. We appreciate 
that you have included a provision to clarify that the bill may 
not be ``construed to authorize or require the NTIA to make 
publicly available any proprietary information'' gathered in 
creating a comprehensive nationwide inventory of existing 
broadband service and infrastructure. We would urge the 
committee to strengthen that provision to state unambiguously 
that proprietary information submitted to the NTIA is protected 
against disclosure, including disclosure pursuant to Freedom of 
Information Act requests. To the extent States and localities 
are given access to this data, they should also be made 
responsible for protecting it against disclosure as well.
     Section 4 Grants to States and Communities for Broadband 
Map Development--Section 4 authorizes NTIA to make grants to 
States and local governments to ``assist in providing the NTIA 
with information to facilitate the development of the broadband 
inventory map.'' Grants could be used by States and localities 
for ``developing and obtaining information regarding the 
geographic extent of broadband services deployment and public 
availability.'' While we recognize that States and localities 
will have more direct knowledge of levels of broadband 
deployment that may be useful in helping to create the 
broadband inventory map, we are concerned that this provision 
could be read to authorize these governmental units to engage 
in their own broadband data collection efforts. These efforts 
may not be consistent with the FCC's reporting requirements, 
imposing duplicative and unnecessary burdens on broadband 
providers. To the extent the States and localities are 
permitted to play a role under this legislation, they should be 
required to use FCC data in order to assist the NTIA in 
developing a broadband inventory map.
     Section 5 Broadband Service Survey--Section 5(a)(2) would 
require periodic surveys of the ``advertised and the actual 
transmission speeds'' of broadband service in urban, suburban 
and rural areas. Cable companies make it very clear in all of 
their advertising materials that maximum advertised speeds are 
not guaranteed at all times and that actual speeds are governed 
by many factors that are beyond the operator's control. Actual 
transmission speeds can vary significantly depending upon 
traffic anywhere on the Internet, both globally and locally. 
Heavy usage of peer-to-peer services or extensive use of full-
motion video downloads and video streaming by just a few users 
in a neighborhood can result in slower download speeds for all 
users.
    Of course, cable operators employ network management tools 
to try to ensure the best possible Internet experience for the 
greatest number of customers. But there is no way for any 
Internet service provider to account for everything that might 
happen on the Internet that might affect download or upload 
speeds at any given moment in time. So the real issue should 
not be to compare so-called ``advertised'' speeds with so-
called ``actual'' speeds but rather to make sure that 
disclosure to consumers is uniform and sufficient to ensure 
that they know what they're paying for. Any attempt by the 
Commission to get a reliable picture of ``actual'' network 
speeds must be based on monitoring over a period time that 
includes periods of maximum demand and peak usage and periods 
when usage is lower and user applications require less 
bandwidth.
    Congresswoman Doris Matsui recognizes the need to account 
for such variations in her bill H.R. 1818, the Broadband 
Deployment Acceleration Act. The Congresswoman would also set a 
statutory definition of current generation broadband service--a 
notion with which we disagree--but H.R. 1818 does recognize 
that speeds should be gauged based on what is available ``at 
least a majority of the time during periods of maximum demand 
to each subscriber who is utilizing such services.'' Should the 
committee decide to include language directing the Commission 
to establish criteria for determining broadband transmission 
speeds, it should do so as proposed in H.R. 1818.
    Finally, if the Commission is being asked to compare 
broadband speeds available in America with speeds available in 
other countries, the Commission should be directed to find a 
way to compare apples to apples--that is, it should apply the 
same standard that takes into account speed variations that 
affect users in other countries, so that we are not accepting 
without proof that average download speeds in other nations are 
greater than they are here.
    Thank you again, Mr. Chairman, for the opportunity to 
testify. We look forward to working with you and the Members of 
the Subcommittee on legislation to establish a reliable 
nationwide inventory of the availability of existing broadband 
service. I would be happy to answer any questions you may have.
                              ----------                              

    Mr. Markey. Thank you, Mr. McSlarrow, very much.
    Our next witness very significantly is an alumnus of this 
subcommittee, and we very much are proud of his work. In 
addition, he also happens to be the president and chief 
executive officer of the Cellular Telecommunications Industry 
Association. That is the association which represents the 
wireless industry, and we are proud of him and glad to see him 
back here before us again, and whenever you are ready to go, 
Steve. This is Steve Largent. Please begin.

STATEMENT OF HON. STEVE LARGENT, PRESIDENT AND CHIEF EXECUTIVE 
                         OFFICER, CTIA

    Mr. Largent. Thank you, Chairman Markey. I appreciate that, 
and I also found it amusing that your vice chairman is 
following in your footsteps with his ardent sense of humor.
    Mr. Markey. Let me rescind some of the nice things I said 
about the gentleman. I ask unanimous consent to revise and 
extend my remarks. Please begin.
    Mr. Largent. Good morning, Mr. Markey and members of the 
subcommittee. I am pleased to have this chance to testify on 
the draft broadband mapping bill.
    Wireless is an important component to our Nation's 
broadband infrastructure. In the most recent reporting period, 
59 percent of all broadband subscriber additions were wireless, 
and more than 200 million Americans can now choose to use 
wireless for mobile e-mail access, web surfing, music, video 
and increasingly critical business and medical functions. 
CTIA's member companies are investing heavily to increase the 
capacity of their networks so they can provide what consumers 
demand. With the implementation of the right policies, CTIA 
members will do even more, with consumers being the ultimate 
winners.
    I applaud Chairman Markey for his leadership on the issue 
of how best to determine the state of broadband deployment in 
America. The wireless industry agrees that a broadband census 
can be a timely and useful tool to help ensure that all 
Americans can participate in the 21st century economy. We 
support the chairman's objective, and I have several modest 
suggestions about ways you can maximize the quantity and 
quality of the data you seek.
    CTIA suggests that rather than changing the existing FCC 
reporting requirement for broadband, the bill should focus on 
the development of an inventory map that shows the availability 
of service offerings at all speeds above 200 kilobits. The 
information collected can be categorized across a range of 
speeds such as 200 kilobits to 1 megabit, 1 megabit to 2.5 
megabits, and so on. We believe this approach will enhance the 
value of the map by giving a more textured picture of the range 
of available services. Arbitrarily excluding wireless offerings 
and other broadband services below 2 megabits per second would 
render the national deployment data and the related mapping 
incomplete and inaccurate and the very flaw that plagues the 
OECD's broadband data.
    A second concern is tying collection data and mapping to 
nine-digit ZIP code areas. The wireless industry provides 
wireless broadband to areas that don't receive mail. Zip codes 
don't matter in a wireless world. CTIA's member companies 
compete on the basis of their broadband coverage. That is why 
they have created digital coverage maps and make these maps 
available to their customers through company Web sites and 
other promotional materials. Wireless carriers should be 
permitted to provide these maps to the NTIA to satisfy data 
collection needs regarding wireless broadband. The agency can 
then manipulate the data into any format that they find useful.
    Third, CTIA's members have no concerns about States or 
localities having access to the information provided to the 
NTIA and the FCC. However, the data collection role given to 
the States in the draft bill appears to establish an 
independent basis for State jurisdiction over broadband 
services. This could undermine the clear, logical and settled 
nature of the Federal jurisdiction in this area. It should be 
made clear that no such independent regulatory authority is 
intended.
    As you move forward, I ask that you keep in mind several 
other issues that are critical to making wireless broadband 
service ubiquitous. First, commercial carriers will continue to 
need more spectrum in order to meet growing consumer demand for 
bandwidth. Accordingly, the upcoming 700 MHz auction must occur 
on schedule and with the spectrum allocated as designated by 
law. Second, spectrum has already been auctioned but must be 
made available to companies that have paid for it. The industry 
applauds the efforts of the NTIA, but the work remains to be 
done to ensure an orderly and quick transition of existing 
Government users off of the spectrum in the AWS spectrum 
auction. Third, the Federal-State Joint Board's recent 
recommended decision to cap funding for competitive carriers 
will harm wireless deployment in rural America and it should 
not be adopted by the FCC. The universal service program needs 
to be fixed certainly, but the Joint Board's proposal is 
discriminatory and will harm the very consumers that the fund 
is supposed to support.
    Finally, I would like to thank the 23 members of this 
committee who signed on to the analog sunset letter a few weeks 
ago. Bringing an end to the analog mandate will free up 
spectrum that can be used for broadband service, and I 
especially would like to thank Mr. Inslee and Mr. Pickering for 
their leadership on this important issue.
    Thank you again, Mr. Chairman, and I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Largent follows:]

    [GRAPHIC] [TIFF OMITTED] T1644.031
    
    [GRAPHIC] [TIFF OMITTED] T1644.032
    
    [GRAPHIC] [TIFF OMITTED] T1644.033
    
    [GRAPHIC] [TIFF OMITTED] T1644.034
    
    [GRAPHIC] [TIFF OMITTED] T1644.035
    
    [GRAPHIC] [TIFF OMITTED] T1644.036
    
    [GRAPHIC] [TIFF OMITTED] T1644.037
    
    [GRAPHIC] [TIFF OMITTED] T1644.038
    
    [GRAPHIC] [TIFF OMITTED] T1644.039
    
    [GRAPHIC] [TIFF OMITTED] T1644.040
    
    [GRAPHIC] [TIFF OMITTED] T1644.041
    
    [GRAPHIC] [TIFF OMITTED] T1644.042
    
    [GRAPHIC] [TIFF OMITTED] T1644.043
    
    [GRAPHIC] [TIFF OMITTED] T1644.044
    
    [GRAPHIC] [TIFF OMITTED] T1644.045
    
    [GRAPHIC] [TIFF OMITTED] T1644.046
    
    Mr. Markey. Thank you, Mr. Largent, very much.
    Now we turn to Mr. Walter McCormick. Mr. McCormick is the 
president and chief executive officer of United States Telecom, 
which is the trade association representing local telephone 
companies. He has been a frequent visitor to our committee. We 
welcome you back. Whenever you are ready, please begin.

 STATEMENT OF WALTER MCCORMICK, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, UNITED STATES TELECOM ASSOCIATION

    Mr. McCormick. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Upton, members of the 
subcommittee, thank you for the opportunity to appear before 
you today to discuss broadband deployment, particularly to 
underserved and unserved areas. We share your interest in 
achieving broader deployment of broadband, and we are pleased 
that this has become a bipartisan objective, with both Speaker 
Pelosi's Innovation Agenda and the Senate Republican High Tech 
Task Force identifying broadband deployment as a key national 
objective.
    Mr. Chairman, you have proposed a map and we think that a 
map, makes sense. It makes sense to know where Americans have 
access to advanced telecommunications services and where they 
do not. It is a practical way of identifying where resources 
need to be targeted. Most U.S. consumers enjoy unprecedented 
choice in broadband access. Competition among cable, wireline, 
wireless and satellite providers has spawned a variety of 
pricing and service options that benefit consumers. In some 
areas, there are even free and advertiser-supported broadband 
offerings. Technological advancements have lowered barriers to 
entry and have made it possible for anyone who wants to invest 
and compete in offering high-speed Internet access to do so, 
and the FCC has embraced market-based policies that have 
resulted in dramatic investment. Indeed, North American 
telecommunications companies are projected to spend $70 billion 
on new infrastructure this year. Today there are more than 
1,300 broadband service providers in the United States. 
Broadband connections have increased more than 16-fold in the 
past 6 years, and one in three people in the world who now log 
onto the Internet using a broadband connection do so in the 
United States. But we all recognize that there are some areas 
where consumers do not yet have competitive broadband offerings 
to choose from and some other areas that lack broadband access 
altogether. This legislation is aimed at pinpointing those 
areas. If we know precisely where the challenges lie, we can 
better address them. So Mr. Chairman, I believe that there is 
complete consensus on the objective. Let me offer then our 
suggestions for how best to go about developing this map.
    First, we think that the more comprehensive the map is, the 
more useful it will be. So don't redefine broadband and thereby 
arbitrarily exclude from mapping some areas that are covered at 
speeds that the FCC has determined are a lot better than dial-
up and capable of full-motion video and displaying text as fast 
as one could possibly turn the pages of a book or turn the 
channels on a TV. The map should identify all the various 
offerings and all the providers so that policymakers can get a 
full picture of the marketplace.
    Second, draw upon what has been shown to work. We are 
pleased as well that the committee has invited ConnectKentucky 
to testify today. We too believe that this is a model that 
builds broadband maps at the State level through effective 
public-private partnerships and is perhaps the best way to 
achieve our shared objective.
    Third, we too suggest that that the nine-digit ZIP code 
approach isn't going to give you what you need. These codes do 
not correspond to service territories. What you need is to 
identify gaps as was done in Kentucky.
    Finally, we agree that an international comparison is 
important, but if it is to have any utility or relevance 
whatsoever, it needs to make an apples-to-apples comparison 
that takes into account geography and demographics.
    Mr. Chairman, we look forward to working with you and the 
committee on this legislation and on initiatives aimed at 
expanding broadband access and competition. Again, thank you.
    [The prepared statement of Mr. McCormick follows:]

    [GRAPHIC] [TIFF OMITTED] T1644.047
    
    [GRAPHIC] [TIFF OMITTED] T1644.048
    
    [GRAPHIC] [TIFF OMITTED] T1644.049
    
    [GRAPHIC] [TIFF OMITTED] T1644.050
    
    Mr. Markey. Thank you very much.
    Our next witness is Dr. George Ford. Dr. Ford is the chief 
economist at the Phoenix Center for Advanced Legal and Economic 
Public Policy Studies. We welcome you back to the committee, 
Mr. Ford. Please begin.

    STATEMENT OF GEORGE FORD, CHIEF ECONOMIST AND EDITORIAL 
 ADVISORY BOARD MEMBER, PHOENIX CENTER FOR ADVANCED LEGAL AND 
                 ECONOMIC PUBLIC POLICY STUDIES

    Mr. Ford. Glad to be back. Thank you, Mr. Chairman, Ranking 
Member Upton and members of the subcommittee. Good morning and 
thank you for inviting me back to testify before you today. 
Three weeks ago I had the honor of testifying before this 
subcommittee on the most recent OECD Broadband Rankings report. 
While there is certainly a great deal of controversy 
surrounding those rankings, we all agree that better data is 
needed.
    As a reminder to the subcommittee, the Phoenix Center is a 
nonprofit 501(c)(3) organization that publishes academic 
research on economics and the telecommunications industry. The 
Phoenix Center makes it a policy not to endorse or support any 
particular piece of Federal or State legislation or proposed 
regulation.
    My comments today are from the perspective of an economist 
that uses Government data to research the communications 
industry. I have written and published numerous papers on 
communications markets, almost all of them empirical in nature. 
So you might say that I have a vested interest in ensuring that 
the data the Government collects and provides are complete and 
useful for statistical analysis. I welcome and applaud this 
subcommittee's efforts to improve the Government's data 
collection abilities. I can summarize my suggestions into three 
categories: completeness, comparability and consistency.
    First, we need to make sure that the data that we collect 
are relevant data and make sure this data is complete. Clearly, 
ZIP code data does not provide us a complete picture of 
broadband availability. Each ZIP code represents approximately 
30,000 people on average, yet it takes only one reported 
broadband connection among those homes for the FCC to consider 
that ZIP code served by that provider. Clearly, that is 
inadequate. We should shrink our unit of measurement to render 
a more detailed and accurate picture of broadband availability. 
The unit of measurement needs to have a rational basis and be 
somewhat stable over time. ZIP codes were designed for optimal 
routes for mail carriers and are subject to change any time 
based on changes in letter mail volumes. This is particularly 
true of the ZIP+4 codes referenced in our discussion draft.
    We also need to include all types of broadband in the 
collection effort regardless of technology or provider. The FCC 
publishes a small mountain of data and has an entire division 
devoted to the collection and dissemination of data, but most 
of that information comes from only one industry segment, the 
local exchange companies. To have a complete picture of how 
broadband infrastructure is developing, we need all providers 
to participate, regardless of size, geographic location, 
ownership structure or technology.
    Completeness also dictates that we need information on the 
different types of speeds and broadband services that are 
available. Today many scoff at the FCC's definition of 200 
kilobits as high-speed service, and the discussion draft makes 
a different choice: 2 megabits downstream and 1 megabit 
upstream. In my opinion, the definition of high speed or 
broadband should be flexible and cover a range of offerings 
beginning at the 200 kilobits offering. From an empirical 
perspective, having a single threshold, particularly one that 
is high, forces researchers to incorrectly assume that areas 
that do not meet that threshold have no broadband service at 
all. A single threshold creates a statistical dichotomy that 
does not exist in reality. Further, the proposed upstream 
threshold will likely exclude many current deployments of 
mobile broadband, and that exclusion is significant.
    From a policy perspective, the distribution of availability 
in terms of service offerings is almost as interesting as 
availability itself. The data also needs to be collected and 
disseminated in a manner that allows it to be compared in a way 
that has statistical relevance. I am concerned about the 
proposal in section 4 that has the broadband map composed of 
data collected by potentially more than 50 different State or 
local governments. Guidelines should be provided so that 
everyone is collecting and disseminating similar data that 
allows for statistical comparison. Otherwise the data will not 
provide researchers like me with valuable, useful information.
    What is most troubling to me about the proposal is its 
failure to recognize that ZIP codes, even nine-digit ZIP codes, 
simply cannot be linked sensibly to demographic data. While 
researchers often crudely assign census demographic data to ZIP 
codes, in doing so we are not able to utilize all the best 
demographic information that the Census Bureau collects. 
Narrowing the geographic bounds of the analysis to ZIP+4 level 
may seem sensible, but it is insufficient, because as far as I 
can tell, there is no ZIP+4 demographic data available from any 
source. Researchers would be able to do very little with ZIP+4 
data. We could make no claims about the relationship between 
availability and income, race, age, population density and so 
forth. These relationships are obviously important from a 
public policy perspective.
    Mr. Chairman, many, if not all, of the policy questions, 
this subcommittee considers are empirical questions and 
empirical questions can only be answered by empirical means. 
Better data will lead to a more disciplined approach to 
broadband policy that will render better results and eliminate 
the waste of resources devoted to quibbling over bad ideas.
    I thank you for the invitation to testify, and I welcome 
any questions that you may have.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T1644.052
    
    [GRAPHIC] [TIFF OMITTED] T1644.053
    
    [GRAPHIC] [TIFF OMITTED] T1644.054
    
    [GRAPHIC] [TIFF OMITTED] T1644.055
    
    [GRAPHIC] [TIFF OMITTED] T1644.056
    
    [GRAPHIC] [TIFF OMITTED] T1644.057
    
    [GRAPHIC] [TIFF OMITTED] T1644.058
    
    [GRAPHIC] [TIFF OMITTED] T1644.059
    
    [GRAPHIC] [TIFF OMITTED] T1644.060
    
    [GRAPHIC] [TIFF OMITTED] T1644.061
    
    [GRAPHIC] [TIFF OMITTED] T1644.062
    
    [GRAPHIC] [TIFF OMITTED] T1644.063
    
    [GRAPHIC] [TIFF OMITTED] T1644.064
    
    Mr. Markey. Thank you, Mr. Ford, very much.
    And now we turn to the idea which has been the genesis of 
the hearing and all of this interest which has now unfolded 
nationwide. We now turn to the State of Kentucky and Mr. Brian 
Mefford. He is the president and chief executive officer of 
ConnectKentucky. In that capacity, he helped to lead efforts to 
ensure that broadband is deployed to all citizens of Kentucky. 
We welcome you, sir. Whenever you are ready, please begin.

   STATEMENT OF BRIAN MEFFORD, PRESIDENT AND CHIEF EXECUTIVE 
                    OFFICER, CONNECTKENTUCKY

    Mr. Mefford. Thank you, Mr. Chairman and Ranking Member 
Upton and all members of the committee. I greatly appreciate 
the opportunity to be with the committee today and to have the 
opportunity to speak to these important issues. I appreciate 
all the compliments this morning and hope to be able to have my 
testimony live up to reach that bar that has been set.
    Mr. Chairman, we agree with you that the Nation needs to 
know where it stands with regard to broadband deployment. We 
need a national strategy that shows us not only where broadband 
is but where it can take us. The Nation deserves a model that 
leverages the best of both the public and private sectors for 
the sake of strong communities.
    As I said, the compliments this morning have been 
plentiful, and they are appreciated. However, I have to tell 
you that 3 years ago things in Kentucky were starkly different. 
Relative to other States, Kentucky consistently ranked near the 
bottom in terms of broadband indicators. The Commonwealth was 
struggling to use technology to address traditional challenges 
such as health care, education, delivery of Government services 
and so forth. Jobs in traditional industries were declining at 
an alarming pace. Inadequate broadband availability could be 
traced to much of the State's inability to complete in areas 
critical in a knowledge-based economy. Significantly though, we 
also identified that broadband availability was not the only 
part of the problem. The other half of the equation was related 
to actual use and technology literacy related to the enabling 
technologies of broadband.
    In terms of availability, there were a series of issues 
that needed to be addressed. First, the regulatory environment 
was not conducive to private investment in Kentucky at that 
time. The cost of regulation was high, and the resulting 
uncertainties meant little investment was occurring in higher 
risk areas. Second, very little data existed to allow us to 
identify the specific broadband gaps in Kentucky, resulting in 
ill-informed public policy and no means for accurate strategic 
planning. Third, the business case for providers to enter 
unserved areas was challenging at best. The cost of entry was 
often prohibitive, and take rates were expected to be extremely 
low.
    So Mr. Chairman, leveraging the collaborative structure of 
a public-private partnership, ConnectKentucky developed and 
implemented a plan to address Kentucky's broadband challenge, 
and following are the five most salient features of that plan.
    First, it is a market-driven approach. ConnectKentucky has 
relied heavily on market forces to accelerate broadband 
availability, competition and adoption. We supported a 
deregulatory environment that has been embraced by all types of 
providers as conducive to increased investment in unserved 
areas.
    Second is the mapping component. To create a picture of 
broadband availability, ConnectKentucky created broadband 
inventory maps. These maps helped promote the use of currently 
available service while also identifying where specific gaps 
remained. Data are collected from all providers and depict 
service availability based on technology type. Service level 
data is integrated into a GIS format that allows for the 
layering of other data sources and enables the most accurate 
determination of household-level detail. Data layers provide 
additional demographic and community information to identify 
things such as density, planned development and existing public 
assets such as water towers and other existing assets that can 
be used in planning for extended broadband coverage.
    The third salient feature is data collection, analysis and 
reporting. In addition to maintaining broadband maps, 
ConnectKentucky serves as Kentucky's broadband data 
clearinghouse, collecting data from numerous surveys and 
sources to, one, advocate for individuals and businesses who 
need broadband; second, to generate market intelligence for 
unserved areas; third, to provide a centralized resource for 
public policy; and fourth, to understand and interpret consumer 
interest and trends.
    The fourth salient feature of this plan has been demand 
creation and aggregation. In each Kentucky county, we have 
established what we call Local eCommunity Leadership Teams. 
These teams assemble as a cross-section of the community to 
create technology strategies across multiple sectors for that 
specific county. Local teams generate and aggregate demand by 
identifying ways to better use technology locally.
    The fifth salient feature of this plan has been the public-
private approach which has served as a middle ground. The 
public-private partnership approach is flexible and 
customizable to local realities. It allows for the development 
of initiatives that solve deployment challenges locally, that 
promotes the value of technology in a relevant context, 
improves technology literacy, and drives technology adoption.
    The bottom line of the ConnectKentucky model, Mr. Chairman, 
is that it accounts for both supply and demand realities in a 
manner that respects consumer needs and encourages market-based 
results with an accurate and detailed picture of unserved areas 
coupled with efforts to improve take rates in all areas. 
Private sector providers have invested aggressively in 
Kentucky, and consumers and communities have reaped the 
benefits. I am glad to tell you that the results bear out the 
merits of this model, and we can talk more about that in 
detail, but as was mentioned earlier, Kentucky has gone from 60 
percent broadband availability to 93 percent in the past 2\1/2\ 
years.
    Mr. Chairman, no doubt this is a challenge of historical 
proportions, and just as previous times called for a national 
response to the need for railroads, highways, electricity and 
telephone service, the broadband challenge calls for an 
aggressive and comprehensive response that will ensure that 
America remains the dominant player in the global economy.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mefford follows:]

                     Statement of Brian R. Mefford

    Chairman Markey, Ranking Member Upton and members of the 
committee:
    Thank you for the opportunity to speak with you today 
regarding the important issues related to broadband mapping and 
data collection. Connected Nation is a national non-profit 
organization dedicated to addressing the broadband challenges 
facing the United States. Connected Nation is the parent 
company of ConnectKentucky, our Kentucky-based organization 
that has served as the ``demonstration project'' for state-
enabled broadband initiatives. It is the ``Kentucky story'' 
that I'm here to share with you today. Kentucky stands as the 
only State to date with an accurate map of its broadband 
infrastructure. This is our story.
    Four years ago, Kentucky faced the same challenges that are 
all too common in states and communities across the country. 
The Commonwealth was struggling to use technology-centered 
solutions to address traditional challenges related to 
education, healthcare, and the delivery of government services.
    On the economic development front, jobs in manufacturing, 
farming, and mining were declining at an alarming pace, with 
little evidence that lost opportunities were being replaced 
with new technology-centric ones.
    The indicators and impacts of Kentucky's technology 
troubles were not hard to identify. Kentucky consistently 
ranked low among states in terms of broadband availability and 
technology literacy. The number of high-tech companies doing 
business in the Commonwealth relative to other states was 
extremely low, and college graduates were leaving in droves, 
creating a troubling ``brain drain'' effect.
    The Challenges: The reality of Kentucky's technology 
challenge was troubling indeed. We realized that the foundation 
of broadband infrastructure was not adequate for creating 
solutions that could address the opportunities of a new day: 
not adequate to provide widespread access to telemedicine, 
distance learning and e-government; not adequate for growing or 
attracting entrepreneurs and industry; not adequate for 
providing more opportunities to our communities whose children 
were leaving to pursue opportunities elsewhere, never to 
return.
    It was clear that the inadequacy of Kentucky's broadband 
infrastructure could be traced to much of the state's inability 
to compete in areas important in the knowledge-based economy. 
Broadband infrastructure had been built into the state's more 
populous areas, leaving more rural areas unserved. The lack of 
service not only created the well-termed ``digital divide'' for 
rural residents, it also made it impossible to develop 
statewide policies that depended upon access to broadband. For 
instance, a statewide e-health initiative was not realistic 
when nearly half of the state's physicians could not connect to 
broadband.
    Significantly, it was discovered that broadband 
availability was only part of the problem. The remainder of the 
challenge related to the actual use of broadband-related 
technology. Any resulting turn-around strategy had to be 
comprehensive in nature: addressing both supply and demand side 
challenges.
    ConnectKentucky set out to identify the barriers that were 
inhibiting broadband availability and use. In terms of 
availability there were a series of issues that needed to be 
addressed. First, very little data existed to allow us to 
identify the specific extent of the broadband gaps in Kentucky. 
Providers didn't know, policy makers didn't know and 
communities themselves didn't know. Second, the regulatory 
environment was not conducive to private investment, causing 
little investment to be made in more risky areas. Third, the 
business case for providers to enter unserved areas was 
challenging at best: the cost of entry was often prohibitive 
and take rates were expected to be low.
    Challenges related to the use of technology included: lack 
of appreciation for the value of technology at the household 
level, lack of cohesive interest in technology at the local 
level, and lack of initiatives to encourage awareness and build 
interest in technology at the state level.
    The Approach: Leveraging the collaborative nature of the 
public-private partnership structure, ConnectKentucky developed 
and implemented a plan to address Kentucky's broadband 
challenge. Key elements vital to the success of the plan 
include:
    Mapping: To create a picture of where broadband did and did 
not exist, ConnectKentucky created broadband inventory maps. 
The maps provided the vehicle for ``purpose driven data 
collection'' to help promote the use of current service while 
also identifying where specific gaps remain. Data layers (from 
the census bureau and other state-level data sources) provide 
additional demographic and community information to identify 
density, planned development, and existing public assets, such 
as water towers, that could be used to plan for extending 
broadband coverage.
    To create the broadband inventory maps, data are collected 
from all providers and account for service availability, based 
on technology type. For example, fixed wireless mapping 
utilizes a number of variables as inputs to produce propagation 
depictions that provide a geographic representation of where 
the signal actually reaches based on terrain, ground clutter, 
et cetera.
    Data Collection, Analysis and Reporting: As detailed above, 
ConnectKentucky collects service-level data from all broadband 
providers in order to produce broadband inventory maps and 
provide corresponding gap analyses. Additionally, 
ConnectKentucky serves as Kentucky's broadband data 
clearinghouse with the intent to:

    <bullet> Generate market intelligence for unserved areas at 
a local level to help providers identify investment 
opportunities and to effectively lower the cost of market 
entry;
    <bullet> Provide a central resource for policy makers who 
are evaluating regulatory matters, assessing incentive 
programs, and generally tracking the status of broadband 
deployment and use in Kentucky;
    <bullet> Collection and reporting of data from household 
and business surveys assist in verifying ``supply side'' data, 
tracking progress, identifying barriers and opportunities, and 
tracking household-specific data related to speed of service, 
price points, et cetera.

    Demand Creation and Aggregation: Local ``eCommunity 
Leadership Teams'' create local technology strategies across 
multiple sectors including: local government, business and 
industry, education, healthcare, agriculture, tourism, 
libraries, and community-based organizations. The local teams 
generate and aggregate demand by identifying ways to better 
leverage technology in local communities. Additionally, 
grassroots awareness campaigns are channeled through eCommunity 
teams, creating a local response to increasing awareness of the 
value of technology.
    Public-Private approach to overcoming obstacles: 
ConnectKentucky's structure is self-replicating in terms of its 
ability to address challenges in a manner that is flexible and 
customizable to local realities. The public-private partnership 
approach allows for the development of initiatives that solve 
deployment challenges locally, promote the value of technology 
in proper context, improve technology literacy, and drive 
adoption among households, businesses and communities.
    The Results: ConnectKentucky has provided Kentucky with a 
comprehensive approach that accounts for both supply and demand 
realities in a manner that respects consumer needs and 
encourages market-based results. With an accurate map of 
broadband services and gaps, coupled with efforts to improve 
take rates, private sector providers have invested aggressively 
in the Kentucky market, and consumers and communities have 
reaped the benefits. Data collection and reporting by 
ConnectKentucky is ``purpose-driven'' and the purpose is to 
achieve ubiquitous broadband coverage that enables job creation 
and growth, advanced education, improved healthcare and more 
efficient government services.
     Over the implementation of this initiative, Kentucky has 
experienced a technology turnaround. Consider the following 
successes that have occurred during the last 2 years:

    <bullet> Broadband inventory maps have been created for the 
entire state, promoting current coverage and allowing providers 
to better target unserved areas;
    <bullet> Broadband availability has increased from 60 
percent to 93 percent of households able to subscribe (on track 
to reach 100 percent by the end of 2007), representing 504,000 
previously unserved households and more than 1.2 million 
residents that can now access broadband;
    <bullet> Broadband use at home has increased 73 percent, a 
rate that has led the nation;
    <bullet> Broadband use among Internet connected businesses 
rose from 65 percent to 85 percent;
    <bullet> Home computer ownership grew by 20 percent while 
the national average rose by 4 percent;
    <bullet> More than $650 million in private capital has been 
invested in Kentucky (unprecedented);
    <bullet> Nearly 2,000 home computers have been distributed 
to the homes of underprivileged Kentucky students through the 
No Child Left Offline program;
    <bullet> eCommunity Leadership Teams have been established 
in every Kentucky county creating grassroots technology growth 
plans across nine sectors;
    <bullet> More than 70 percent of Kentucky counties now 
operate or are in the process of constructing a meaningful web 
presence for e-government and online citizen services, up from 
about 30 percent just 2 years ago;
    <bullet> 22,000,000+ positive media impressions have 
covered Kentucky technology growth.

    The Impact: Over the last 2 years, more than 14,500 total 
technology jobs have been created in Kentucky. During the same 
2-year period, in the IT sector alone, Kentucky jobs have grown 
at a rate 31 times the national growth rate: 3.1 percent for 
Kentucky versus 0.1 percent nationally, representing a reversal 
from years prior to program implementation.
    Technology literacy has improved, the number of high tech 
jobs has increased, and Kentucky communities are enjoying the 
return of their children. Consider these improvements related 
to Kentucky's ``brain drain'' challenge:

    <bullet> Today, 86 percent of all Kentucky graduates remain 
in Kentucky to live and work--an 18 percent increase since 
2000;
    <bullet> Since 2000, there has been a 50 percent increase 
in the number of out-of-state students who remain in Kentucky;
    <bullet> Among graduates who are Kentucky natives, 95 
percent of them now remain in Kentucky;
    <bullet> The percent of doctoral degree students who stay 
in Kentucky has nearly doubled (from 27 percent to 52 percent).

    Today in Kentucky entrepreneurs are thriving; businesses of 
all sizes are finding an environment ripe for growth; rural 
communities are finding ways to diversify and provide 
attractive opportunities for their children; primary schools 
and universities are connected as never before, providing 
content and curriculum previously not possible. In short, as 
the broadband challenge has been addressed a strong foundation 
was established to allow for technology-centric solutions and 
improvements to flourish.
    Kentucky has demonstrated the importance of the national 
broadband discussion and the relevance of technology to 
America's ability to compete. Based on our experience in 
Kentucky, we know that technology diminishes the significance 
of distance. In the past, opportunities to thrive have depended 
largely upon one's proximity to major markets. Technology has 
made the distance factor irrelevant. In other words, with the 
availability of cutting edge technology, entrepreneurs and 
businesses can thrive wherever they choose to locate. 
Technology has become the great equalizer for individuals and 
communities alike--creating opportunities, fueling better 
education, higher quality healthcare, and better quality of 
life--regardless of where an individual or community happens to 
be located.
    This same dynamic, however, represents both a huge 
opportunity and major threat for the United States. Other 
countries have invested in broadband towards achieving 
universal access--and like Kentucky, they have managed to 
leapfrog their previous standings to become a competitive 
force. It is the hope of Connected Nation that this Congress 
can call the country to arms on this issue by conveying the 
true sense of urgency for action. The nation needs to know 
where it stands with regard to broadband deployment. We need a 
map that shows us not only where broadband is, but where it can 
take us. The nation deserves a model that leverages the best of 
both the private and public sectors for the sake of strong 
communities. No doubt, it is a challenge of historic 
proportion. Just as previous times called for a national 
response to the needs for railroads, highways, electricity, and 
telephone service--the broadband challenge calls for an 
aggressive and comprehensive response to ensure that America 
remains the dominant leader in the global economy.
    Thank you, Mr. Chairman, for the opportunity to present to 
this esteemed committee.
                              ----------                              

    Mr. Markey. Thank you very much, Mr. Mefford.
    The Chair will now recognize himself for a round of 
questions, and we will begin with you, Mr. Ford. The draft bill 
suggests one way to obtain greater granularity of data, namely 
moving to nine-digit ZIP codes. You suggest an alternative: 
census block data. Can you explain why you think that is a 
better approach?
    Mr. Ford. I think this is an issue of collection, 
presentation and dissemination of information. I don't think 
any of the data is going to be collected as ZIP+4 or a census 
block because companies are not going to provide information in 
that format. They are going to provide information in the 
format that they have it in. It is put into a mapping program, 
and as Mr. Mefford said, you can overlay all sorts of 
geographic data on top of that. My concern is how it is 
provided to the public in its form. A map is nice, it is pretty 
and it is easy to see, but you can't take information from a 
map visually and use it to study it outside the organizations 
that have the data.
    Mr. Markey. Let me go to you, Mr. Mefford. How did you deal 
with this issue of using census data?
    Mr. Mefford. Much as Dr. Ford explained in his testimony, 
we used service-level data, so it is actually where service 
reaches, and so layering other census data on top of that 
provides for an easier path to analysis.
    Mr. Markey. Mr. Cohen, many of the witnesses say that it is 
not necessary for the FCC to measure and report on actual 
broadband speeds. Rather, they say the FCC should measure 
something more like best efforts broadband speeds. Can you 
explain why consumers need to know what their actual broadband 
speeds are?
    Mr. Cohen. Sure. Thank you. Well, speed matters. It matters 
up as well as down. Oftentimes there is no attention to up, and 
we are not just talking about downloading movies, we are 
talking about sending health care information. We are talking 
about people's ability to communicate in two directions, and so 
we think it is critical to do it both ways. We are talking 
about education. We are talking about health care. We are 
talking about people who are disabled. Speeds matter in terms 
of how you use the service. Right now that is basically 
obfuscated. People don't even know what their speeds are. And 
the other comment I would make is price is connected to speed. 
So we would say that the affordability, the universality, the 
take-up rate, as others have said here, is also critical to 
measure.
    Mr. Markey. Thank you.
    Mr. Scott, we have heard much from industry and others on 
why the OECD's broadband rankings supposedly understate the 
extent of broadband deployment in the United States. Now, we 
had a hearing on that issue with leaders from around the world 
a couple of weeks ago. In fact, the U.S. State Department saw 
fit to send OECD a letter to complain. I understand that you 
have looked into these complaints. Can you tell us what you 
found?
    Mr. Scott. We took those complaints very seriously and 
analyzed some of them to see whether or not they changed our 
ranking, and in particular we looked at the special access 
lines, the big business lines that the OECD didn't count in 
their numbers, and we went to the wireline bureau----
    Mr. Markey. That is the reason they said that we really 
don't get the full credit, because we have special access lines 
here in the United States, and they don't count them in OECD.
    Mr. Scott. So we looked at that, and we called up the 
wireline bureau and said how many special access lines are 
there that would be in that category, and they didn't--as is 
typical at the FCC, they didn't have an exact number. They 
estimated it for us at around 600,000. So we brought that up to 
a million just to be safe, and we refactored that into the OECD 
numbers and found that it didn't change our position relative 
to other countries.
    Mr. Markey. But what ranking did we have before you 
included special access? What ranking did we receive?
    Mr. Scott. It was 15.
    Mr. Markey. And what did we move up to after you included 
them?
    Mr. Scott. We didn't move up.
    Mr. Markey. We stayed the same?
    Mr. Scott. Yes.
    Mr. Markey. Oh. That wasn't clear in the testimony we had 2 
weeks ago and the complaints that we received. So it is not 
that big of a difference counting the special access?
    Mr. Scott. No.
    Mr. Markey. Very interesting.
    Let me complete my time and turn and recognize the 
gentleman from Michigan, Mr. Upton.
    Mr. Upton. Thank you, Mr. Chairman.
    Mr. Mefford, when was it that ConnectKentucky actually 
began to crystallize in terms of a thought, in terms of 
beginning to work on this project, and what was the cost and 
how were you able to raise the money for it? I think it was 
about $12 million, but you might confirm that for me.
    Mr. Mefford. Yes, sir, I appreciate the question. It was 
about 3 years ago that statewide effort began to crystallize, 
as you say, and the sources of funds over the previous 3 years 
have----
    Mr. Upton. Did you have an assessment through chambers of 
commerce, or did the State of Kentucky help your county support 
industry?
    Mr. Mefford. Yes, sir, primarily it has been the support of 
the State. We have had funding through grants from our State 
economic development cabinet, grants from our local development 
agencies. We have also had Federal support from the Appalachian 
Regional Commission and also some level of support from the 
Rural Utilities Service.
    Mr. Upton. But the total is about $12 million? Is that $12 
million a year?
    Mr. Mefford. No, sir. I am sorry. It is actually roughly $3 
million, $3 to $3.5 million per year total. I should say that 
some of the funding also comes from some private-sector 
companies as well.
    Mr. Upton. And now in essence it is done, right? What are 
your ongoing efforts?
    Mr. Mefford. Well, we have surpassed some of the goals we 
set for Kentucky 3 years ago, but there is still work to be 
done, and so we are at 93 percent availability. We pledged 100 
percent availability by the end of this year. There is also 
work on the demand side which, as you know, never ends. I mean, 
we are working with every community in Kentucky to increase the 
use of the technology.
    Mr. Upton. Now, I know it is viewed as even though you did 
receive some State and Federal funds, what is the share as a 
percentage from Government funds versus private funds that you 
might have gotten from industry or individuals?
    Mr. Mefford. It is roughly 80/20.
    Mr. Upton. Eighty/twenty?
    Mr. Mefford. Yes, sir.
    Mr. Upton. Government funds?
    Mr. Mefford. Yes, sir.
    Mr. Upton. And as you began to operate this, as I 
understand it, one of the critical factors was that the 
information was kept confidential in terms of what you actually 
gleaned from the different providers of broadband. Is that 
right?
    Mr. Mefford. That is right. That is correct. We established 
a non-disclosure agreement that establishes the level of 
detail----
    Mr. Upton. And was that absolutely critical in terms of the 
success that you were able to--in terms of cooperation that you 
were able to get from those providers?
    Mr. Mefford. Yes, sir, it was certainly one of the critical 
factors. It helped address the sense of vulnerability among 
providers that the proprietary data would be made publicly 
available. We had some measures to be able to secure that. 
Also, another critical factor to them being willing to give us 
data was the demand-side work and the fact that they were 
seeing take rates increase almost immediately as a result of 
having their service areas mapped and also by providing 
information about the gaps that existed. It was essentially 
market intelligence that helped them better target investments 
in unserved areas.
    Mr. Upton. And once the providers saw the unmapped areas 
that were there, how willing was the industry to in fact deploy 
into those areas?
    Mr. Mefford. I think that is perhaps the best news of this 
effort is that they were extremely willing, once the gaps were 
clearly illustrated and we could begin overlayering data such 
as household density and plan development, they could see where 
the best places were to invest pretty quickly.
    Mr. Upton. And in terms of what was in those unmapped 
areas, I mean, did you--I look at my district where we have, as 
an example, Western Michigan University is in Kalamazoo and 
that was literally one of the very first public educational 
institutions that became a wireless entity. Did you identify 
hospitals and major employers and universities and other things 
that would be a magnet towards deployment of that?
    Mr. Mefford. Yes, sir. We do that on the community exercise 
that we do with the local communities. We bring local 
government, we bring business and industry, health care, 
education, agriculture, tourism, local development----
    Mr. Upton. Did you work with local chambers and different 
economic development engines as well then in----
    Mr. Mefford. Yes, sir, we work with those and all those 
other sectors I mentioned in all of Kentucky's 120 counties.
    Mr. Upton. And the last question, since my time is running 
out, as you looked at the speed, particularly the FCC's 200 
kilobits definition, how important was it to actually measure 
the speed and make that available in terms of what was there?
    Mr. Mefford. We didn't set a minimum threshold frankly 
because we felt that we didn't want an ideal or a perfect 
version to be the enemy of the good, and so there are 
communities--we have some of the poorest counties in the Nation 
among our Kentucky counties and so there are first step 
broadband technologies that are relevant and helpful and 
empower those communities whereas advanced services, fiber and 
so forth just would not be a reality. We have mountainous 
territories that just clearly will not receive some of these 
higher-end technologies in the short term. So I can point to 
examples across the board. We had one particular example of a 
lady who contacted us in far western Kentucky who said I have 
multiple sclerosis and I cannot keep commuting an hour to work, 
I need broadband and I need it today, and we were able to work 
with our providers and get her broadband. It is not at speeds 
mentioned in this draft. It was at a lower speed, but she 
reported to us immediately that this technology has changed my 
life, I can now work from home and I can enjoy the company of 
my kids and I don't come home dead tired every day. And so with 
that example, I would say that it was important for us not to 
eliminate the opportunity to deploy that type of technology.
    Mr. Upton. Thank you.
    Mr. Inslee [presiding]. Thank you. We will recognize Mr. 
Green of Texas.
    Mr. Green. Thank you, Mr. Chairman. I should have done this 
earlier. I want to recognize not only our former colleague, 
Steve Largent. Every once in a while we used to get to play 
basketball together. I can never match your jump. I know that. 
But also, President Cohen from CWA, I have to add the 
disclaimer, I am a CWA member, and for those of you who think I 
can go out and fix your broadband, I came from the publishing 
sector, and government work over the years and the legislature 
and Congress has ruined me for even printing a newspaper 
anymore, much less fixing your telephone.
    Mr. McCormick, section 2 of the draft legislation defines a 
broadband connection as 2 megabits per second downstream and 1 
megabit per second upstream. Clearly the current definition of 
broadband used by the FCC of 200 kilobits per second downstream 
and 200 kilobits per second upstream is by many standards 
extremely low. What do you think the standard for broadband 
should be?
    Mr. McCormick. Congressman, the purpose of this legislation 
is to figure out who has what, and as Mr. Mefford just 
testified, there are consumers who if they can get broadband at 
the speed of four times the speed of dial-up, it gives them the 
ability to have speeds just as fast as you can turn a page in a 
book or change the channels on a TV. That is a huge 
advancement. It is important to us to know what areas have even 
that and what areas do not. The FCC currently looks at four 
different tiers of broadband service. The first tier goes from 
200 kilobits per second to 2\1/2\ megabits per second. We think 
it is important to map everything, to have a comprehensive map. 
We realize that broadband speeds are going to continue to 
increase with technology, but the goal here is to be able to 
provide consumers with access that is superior, far superior to 
what they have today and to figure out who has it and who 
doesn't.
    Mr. Green. In follow-up for Mr. Mefford, so you approach it 
as, the minimum level would be 200, but it is a consumer issue 
and consumer information, so they would know that if they are 
moving into a community, they would know that that is the level 
of the broadband that is available, not maybe what they are 
leaving or what they would hope to have but that consumer 
information. Is that correct?
    Mr. Mefford. Yes, sir, that is correct.
    Mr. Green. Mr. Cohen, you mentioned in your testimony that 
you agree with the standard in the legislation of 2 megabits 
upstream and 1 down. Is it a good idea for Government to set 
these standards? Because in Houston, it seems like we are 
fortunate to have competition where people will pay for the 
higher speeds.
    Mr. Cohen. Yes, I mean, we think there needs to be labels 
on this of some sort to differentiate so that consumers will 
know, policymakers will know what actually exists there. If we 
call everything high speed and blend it all together from 200 
kilobits up, here is a chart, here is what is going on in the 
rest of the world and we are virtually off the chart. So, we 
would say that speed matters. It is better to have 200 than 56 
kilobits, but we need to set a goal. So Japan's goal was 100 
megabits a second by 2010 to every house. What is our goal? 
What are we after? We can't mandate it, but what are our goals? 
To set the goals, we need to know what the speeds are.
    Mr. Green. You mentioned considering a new definition for 
second generation broadband to carry full screen and high def 
video. The panel heard last week from Mr. Cuban that it would 
take somewhere in the neighborhood of 1 gigabit per second 
downstream to achieve. Do you think that figure is accurate? 
And you mentioned in your testimony how long it would take to 
download a video. If so, what do you think it would take to 
upgrade the current infrastructure to reach those speeds?
    Mr. Cohen. That is a great question. What it will take is 
public-private partnerships, not just things like 
ConnectKentucky but actually figuring out, much as they have 
done in the rest of the world that is way ahead of us now, how 
you mix together public policy goals with private--driving up 
the kind of numbers that Mr. McCormick talked about on an 
ongoing basis. Because what we have learned is, this country 
was first, not only first to be there but led in terms of 
international deployment, international development, 
infrastructure investment, and we would probably say that some 
of the things we did had unintended consequences and interfered 
with us keeping that leadership role. So, what it will take to 
stimulate private-sector investment is a longer story, but the 
first step along the way is to set goals and to figure out 
exactly where we are and then find out what do we have to do to 
meet the goals to keep us in step with the rest of the world.
    Mr. Inslee. Mr. Green, thank you. We are going----
    Mr. Green. I understand, and I would like to ask a couple 
of questions in writing if I could.
    Mr. Inslee. Thank you. I appreciate it. We have got about 
13 minutes. We will try to do two more. We will go to Mr. 
Barton of Texas.
    Mr. Barton. Thank you, Mr. Chairman. I will be brief.
    The most important question I have is to Mr. Largent. Are 
you willing to come out and pitch batting practice for the 
Republican baseball team in the next month as we get ready to 
take on Mr. Inslee and Mr. Stupak and Mr. Doyle on the dark 
side?
    Mr. Largent. I have volunteered my services for both.
    Mr. Barton. For both?
    Mr. Largent. I am bipartisan.
    Mr. Barton. My God. What a bummer.
    Mr. Largent. It didn't help last year.
    Mr. Barton. What a difference an election makes, right? All 
right.
    Well, now that we have that out of the way, Mr. McSlarrow, 
I scanned the written testimony, and I tried to listen to most 
of the witnesses verbally. You seem to be kind of where I am. 
This isn't the worst idea that has ever hit the pike, so we 
ought to be for it in some way, but you seemed a little bit 
ambivalent about it, which is kind of where I am. Wouldn't we 
be a little bit better off maybe to just inventory the 
different speeds as opposed to set this 2 megabit per second 
standard and just inventory what is out there? I may have 
misinterpreted what you said, and if I did, it won't hurt my 
feelings if you tell me that.
    Mr. McSlarrow. I think--here is the way I would put it. I 
think it is useful to inventory what is out there precisely if 
you are thinking about unserved or underserved areas so that we 
know what we have out there. I think it is a tough question 
about whether or not there should be some standard, some metric 
above which and below which where you think of broadband or not 
broadband, because I don't know how you define that. I really 
don't. And it is changing and developing every day. But it is 
probably not harmful to try to grapple with that question, but 
I think it more towards your point. It is more important to get 
an honest, candid assessment of where we lack broadband, where 
we lack anything, first of all, and what is out there so that 
actual competitive pressures and the public-private 
partnerships that we have all been talking about can focus on 
that kind of problem and actually provide a meaningful 
solution.
    Mr. Barton. Mr. McCormick, your association testified 
enthusiastically in favor of this legislation. Assuming that we 
do it, what would your members do with it?
    Mr. McCormick. We are enthusiastically in favor of having 
an idea of where we are. We are not in favor of redefining 
broadband to be 2\1/2\ megabits, and what our members would do 
with it is to continue to work with public-private partnerships 
like ConnectKentucky, to look to build a basis for those who 
want access to broadband, who will, in fact, take if it is 
deployed to that area, and we will also use it to help 
researchers and policymakers to understand the level of 
competition out there, and because technology has brought us to 
a place where barriers to entry are very low, they just take 
investment and use it to encourage investment.
    Mr. Barton. Does any of the panel think that if we did this 
inventory at the national level, it would change your business 
plan? Would decisions be made differently than if this 
information was not available?
    Mr. Mefford. Congressman Barton, I would respond to that. 
Our history in Kentucky, we did see that. In fact, having that 
tracking and even tracking different speeds informs the 
business plans of providers in a significant way. In other 
words, I also think tracking lower speeds would encourage other 
providers outside of those areas to invest or current providers 
to invest in higher-bandwidth technologies.
    Mr. Barton. Mr. Chairman, I am going to yield back because 
I know you want to get one more round in, but I want to thank 
the panel for participating in the hearing.
    Mr. Markey. I thank the gentleman from Texas.
    I am going to advise the gentleman from Michigan, Mr. 
Stupak, that there are 8 minutes and 47 seconds left for the 
vote on the floor, and I am going to recognize the gentleman 
from Michigan for as much time as he may consume at this point, 
and then if he could recess the hearing, and then I intend on 
returning after that roll call. There will be four 2-minute 
roll calls. I will return at that point after those 2-minute 
roll calls for approximately a 20-minute period before we then 
have a vote on the recommittal motion.
    So I recognize the gentleman from Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman. I am sorry Mr. Barton 
left because it should be noted that Mr. Largent has pitched 
Democratic batting practice the last 2 years before the 
election. So I just want to make sure Joe understood that.
    Mr. McSlarrow, if I may, thanks for your testimony on the 
draft and broadband deployment. I appreciate your 
acknowledgement of the problems facing rural America. I know 
you have had some concerns about the Rural Utilities Service, 
subsidized broadband loans and grants going to communities 
where there are already multiple broadband providers. How would 
this draft legislation help that situation or at least address 
those concerns?
    Mr. McSlarrow. Well, I think in two ways. One, the arduous 
loan program, the applications, a proxy for any Government 
program, is trying to target funds for support to rural 
communities suffers from the fact that they don't actually know 
which communities have existing providers, whether or not it is 
one or more providers in a competitive market, and so therefore 
they are dependent to some extent on the applicants coming 
forward and saying I would like some of this money or I would 
like a loan, here is the state of play in this area, and so 
what we have seen just as a matter of practice is that often 
those loans, the guarantees that have been granted to 
providers, are actually going into suburban areas, which is the 
last place anybody really intended that they go. So I think 
both in terms of the agency and I think keeping people on this 
in terms of applications, it would benefit.
    Mr. Stupak. Well, I authored the Rural Utilities Service 
provisions in the House working with the Senators from Dakota 
there, and now we are getting the farm bill up so many of those 
concerns like Houston really wasn't a rural area, but yet we 
tried to do some in my district, and they said we weren't rural 
enough. It doesn't make any sense. So we are going to try to 
strengthen that, but if you have any further concerns on that, 
please let us know because that part of the farm bill is moving 
quickly.
    Mr. Scott, thanks for your testimony. You talked about the 
need to establish the evolving definition of high-speed 
Internet access. Do you think it would also be useful to have 
data broken down by multiple categories of high speed? In 
addition, do you think that wireless should have a different 
standard? Isn't the broadband experience of sending a text 
messaging on a Verizon cell phone different than downloading a 
movie over Verizon FiOS?
    Mr. Scott. Absolutely it is different, and we may have to 
have a lawyer-off here, but I don't see anything in this bill 
that prohibits the FCC from doing inventory of all the 
broadband lines available that are not dial-up. I think that 
changing the standard for high speed is more akin to what Mr. 
Cohen alluded to, which is setting a standard, setting a goal, 
and having an evolving standard so that we are trying 
constantly to raise the bar so that we can advance and try to 
get back up with the rest of the world, as you can see on Mr. 
Cohen's chart. I think ultimately the key point here is the 
value for the consumer measured in the cost per unit of speed. 
Because if you look at it, I mean what we found is, in a lot of 
places there is broadband available. Over 90 percent of 
households that have a cable line going to the house have cable 
modem capability, and sometimes that is the only one, and it is 
expensive, and it could be price that is the problem, but in a 
lot of cases people have it available, and they are just not 
buying it because they don't see it as important enough to buy. 
So we see the speed prospect as a question of value. The faster 
the network, the more cool stuff there is to do and the more 
likely it is that people will buy it.
    Mr. Stupak. Mr. Largent, would you care to comment on that 
question? Do you think data should be broken down by multiple 
categories of high speed, especially do you think wireless 
should have a different standard since----
    Mr. Largent. Well, I think it should be broken down by 
speed, because I think it serves as an incentive to get faster, 
and faster and that is what is taking place in the wireless 
industry. We were a lot slower than we are now, and we have 
picked up the pace and that is going to continue over time. 
Because I think measuring all speeds from 200 kilobits up is 
actually a great incentive to continue this move to faster and 
faster speeds.
    Mr. Stupak. And then you get into the argument of Net 
neutrality, because we saw that before if you start breaking it 
down by categories.
    Mr. Largent. What is that about neutrality?
    Mr. Stupak. Net neutrality.
    Mr. Largent. What about it?
    Mr. Stupak. Well, they argue the Internet is no longer 
accessible to everybody because of the data and how much data 
you can move at different speeds, then we get back into that 
old argument.
    For the entire panel, if you want, just put it in writing. 
I would appreciate because we have 4 minutes left in that vote, 
and we are probably going to be late. But anyway, legislation 
directs the Commission to compare broadband deployment in the 
United States with 75 communities in at least 25 countries 
abroad. I think it is a good idea. However, I would like to see 
more of a rural-urban comparison. So if you would, would you 
support including rural communities among the list of 75, or 
are there any other ways we can do this comparison other than 
what is dictated? So if you have some ideas on that, other 
ways, especially, we would like to hear it. If you could send 
the comments to the committee, the members would appreciate it.
    And with that, on behalf of the chairman, we are going to 
recess until after those 2-minute votes. Thank you all.
    [Recess]
    Mr. Markey [presiding]. Ladies and gentlemen, if you would, 
the subcommittee is reconvened, and after waiting for another 
10 seconds, we will turn and recognize the gentleman from 
Nebraska, Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman, and I appreciate you 
having this hearing. As noted in one of our last hearings when 
we were comparing broadband access in America to the rest of 
the country, Mr. Ford was there, and one of the things that we 
noted is, there is no inventory for us to be able to really see 
if we are talking apples to apples or something else here, and 
so I do think this is an important first step. And as Rick 
Boucher and I drafted the USF reform bill, we actually looked 
at the ConnectKentucky, and frankly I think what we are trying 
to do there meshes with the concept of the public and private, 
and so we can still use now the USF with the public commitment 
to it, especially in the high-cost areas, so I see how these 
two issues merge or at least that the is the conclusions that 
Rick and I came to when we studied the ConnectKentucky.
    I do have questions though about the inventory or the 
mapping as we call it here, just to make sure that we are 
talking about the same things and whether 2 megs or 1 up, down, 
sideways, whatever. I do think we need to initially take an 
inventory of what we have got and then set the goals, and I 
think first of all the chairman is correct that this committee 
and subcommittee is the one that should be setting the goals to 
define broadband. It would be interesting though to see if we 
set it at 2 or 3 or 5 or 1 or whatever it will end up being, 
because I am sure at some point in time we are going to do 
that, that we do it so we don't leave certain technologies out 
at this point or, for example, Mick Jansen from Great Plains 
Telecommunications of Blair, NE, which is only a few miles from 
my home in Douglas County, NE, and is one of my mentors on 
telecommunications policy, he has a loop that is 60 miles, 30 
miles to the house, one resident, and then back, and that is 
difficult maybe for him right now to push 5 megs or 3 megs, but 
he can do 1 right now with the 60-mile loop. So I think that we 
need to kind of put that into the inventory.
    But I want to ask Mr. McSlarrow and Mr. McCormick this, and 
I mean this in a sarcastic way, but it makes my point in that 
the broadband services to a customer in the billing, it is very 
confusing to a customer because what is advertised many times 
is rolled into a bundle of package instead of stand-alone, and 
I joked that the bills for your broadband telecommunications, 
video and all of it are becoming more complicated than the 
hospital bills. So when we do this, what would you suggest be 
the boilerplate, because I think maybe every town, every system 
may have a different scenario of what they bundle, how they can 
bundle, what speeds they bundle, and so I am not sure what the 
criteria should be so we can have apples-to-apples comparisons 
as we map. So I will let Mr. McSlarrow and then Mr. McCormick 
answer what the criteria should be so that we are on an even 
playing field in our comparisons.
    Mr. McSlarrow. Well, as a consumer of all these products, I 
am not going to push back about confusion at all. I mean, I 
don't understand any of it, to be honest.
    Mr. Terry. I appreciate you sharing that with us.
    Mr. McSlarrow. Ironically, though, in an effort to disclose 
as much information to the consumer, we make it more confusing. 
I mean, there is that irony involved, and I am only familiar 
obviously with cable modem service but this is a service, and 
first of all, it is asymmetrical, so you have different 
downstream speeds because that is where most of the capacity 
needs to be used, as opposed to upstream where you just may be 
pinging a request. Second of all, it is a shared network, so 
things are happening during the day. If your neighbor is 
downloading movies right next door all day long, it is going to 
affect the speeds. The language tends to be vague so there is 
sort of--you are buying for a certain price a speed, say, in my 
case I have got a 15-megabit service for cost. I know at least 
what that means to me is that when I go out and I have a demand 
for something on the Internet, it is going to supply that for 
that burst of activity. I don't need it for other times, I need 
it then. But I also have to know that it is a shared network, 
and so I think thinking about this as an average across periods 
of the day gives you a better sense of the metric of what you 
have. But I don't know and I don't really have a creative 
answer for how you balance maximum disclosure of what is 
actually happening with avoiding consumer confusion. I don't 
know if there is something, a one-size-fits-all, that will 
apply to every broadband service provider.
    Mr. Terry. I appreciate that. Mr. McCormick, I want to add 
on this question about whether or not any of your members and 
then come back to Mr. McSlarrow and ask him if any of your 
members are willing to give proprietary information to a 
Government agency subject to FOIA.
    Mr. McCormick. No. With regard to that, we are reluctant to 
give proprietary information to a Government agency if that 
information is subject to FOIA. There are certain FOIA 
exceptions, but I think you have a very important point, which 
is part of investing and deploying broadband is to develop a 
business plan that allows you to differentiate your product in 
the market and compete. What we have today is, we have a lot of 
competition. You raised the issue of bills. Historically in our 
industry, consumers were charged for telephone service based 
upon minutes of use and distance traveled. That is no longer 
the case today because of competition. And so I think that as 
we are mapping, what we would hope is that for purposes of 
looking at coverage areas and doing inventories, that there 
would be some categories of service so you know what speeds are 
available to consumers. But then what we are going to have is, 
we are going to have vigorous competition on speed, quality of 
service and price, and we are going to have it on a multi-
platform basis. The three of us right here are going to be 
aggressively competing, our industries competing, and the 
consumer will benefit from that because each of us is going to 
do our best to tell the consumer why we think our offering is 
preferable than the competitor's.
    Mr. McSlarrow. And just to echo Walter, we think it is 
important to gather as much information as possible. If it is 
proprietary, we would urge the committee to ensure that not be 
disclosed, including under FOIA.
    Mr. Terry. Would pricing of 2 megabits down be----
    Mr. McSlarrow. I think if it is publicly available. Pricing 
information, that is not the issue.
    Mr. Terry. I yield back.
    Mr. Markey. The gentleman's time has expired.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Pickering.
    Mr. Pickering. Mr. Chairman, thank you, and I appreciate 
the opportunity to have this hearing. As we go forward, it is 
very important for us as policymakers to be able to have 
accurate measurements of where we are as a Nation so that we 
can come up with the right policies.
    Mr. McSlarrow, Mr. Largent and Mr. McCormick, I would like 
to just ask two quick questions of each of you, or maybe just 
one in combination for each of you to answer. It is critical to 
get it right where we are as a Nation, but at the same time 
there is a chicken and egg. What are the policies that will 
actually help you build out and deploy? And if you could, what 
are the one or two things that you would recommend from a 
policy perspective for us to get where we hope to be as a 
Nation on broadband deployment? And from the 700 MHz to the USF 
deliberations, are there any other regulatory or other 
impediments that you see? What are the two recommendations that 
each of you would give to those of us here to make the right 
policy for the broadband deployment as we go forward?
    Mr. McSlarrow. In 1996, this committee led an effort in the 
past Congress to deregulate rates for cable. It didn't actually 
take effect until 1999, and literally that year it spurred over 
$100 billion in investment where we rolled out broadband in 
America, so it is pretty clear to me that continuing that 
policy forward is a good idea for every provider in the 
marketplace. And the other point I would make is that for the 
broadband pipe that we supply, much of it, as you know, is used 
up by analog TV channels. Out of the 750-meghertz pipe, 450 of 
it is used up by analog. So when we are doing our digital 
transition, just to stay on message here, it is vital that we 
don't have an agency like the FCC impose dual carriage or 
multicasting requirements where we suck up capacity that we 
could free up to roll out the 100 megabits of service that I 
think every member of this committee says the American people 
want.
    Mr. Largent. I thank you for the question, Congressman 
Pickering. I would say first of all, the great thing about the 
wireless industry is that we continue to evolve and get better 
and better. I brought a phone from maybe the early 1990s, late 
1980s. This is where we were just 10 years ago, and this is 
where we are today, and we continue to evolve and get better 
and better and better and we are going to continue to do that, 
and it is because of the competitive pressures that we have in 
the marketplace that we are doing all of these great things. 
But you asked about additional points that we would like to 
make at this hearing. I would say 700 MHz is really critical 
for our industry to have additional spectrum to operate on and 
the 700-MHz auction being scheduled at the end of this hearing 
hopefully that that happens on schedule. It is very important 
to our industry, particularly if we are talking about 
deployment of broadband. That is going to be real key for us.
    Following through on the AWS auction is also highly 
critical. The spectrum has already been auctioned, but we have 
some--we could use some help from Congress, encouraging--NTIA 
has done a great job but maybe some help in encouraging some of 
the Government users to move off the spectrum as quickly as 
possible so that we can roll it out to our customers as quickly 
as we can. The universal service cap that the Joint Federal-
State Board has recommended would be highly harmful to our 
industry, in particular in rolling out the type of services 
that we are talking about in this hearing to rural America and 
so that is very much of a concern for entry. And finally, the 
last thing I would say is, the analog sunset is another way 
that we have given over 5 years' time to get people off of this 
analog--have this analog sunset occur and yet we still have a 
few people that want to hang onto the analog, and this is 
spectrum that we could use again in a more effective manner as 
we roll out digital if we can actually sunset it now after the 
5 or 6 or 7 years that we have given people to move off of it. 
So those would be the few items that I could think of that we 
would want to make in this hearing.
    Mr. McCormick. Congressman Pickering, thank you. It is a 
great question because we all want to see greater broadband 
deployment. We think it is the future of our country. I would 
say three things. First, we are at the place with unlicensed 
spectrum wireless technologies, new technology, broadband over 
power line, where the barriers to entry are now extremely low. 
All it takes is investment. So first, allow those who invest in 
offering broadband to offer over broadband all that broadband 
can offer--video, entertainment, home security applications, 
whatever. If they invest, let them do it. Number 2, we think 
programs like mapping and doing an inventory coupled with 
public-private partnerships like ConnectKentucky and modest 
changes to the RUS program would really help with investment. 
And third, tax policies. We think that to extend the Internet 
tax moratorium is a very important thing to do.
    Mr. Pickering. Mr. Chairman, thank you.
    Mr. Markey. I thank you, Mr. Pickering.
    What I would like to do is ask each one of you to give us a 
1-minute summation of what you want the committee to remember 
about your testimony as we are going forward. We will go in 
reverse order of the opening statements of the witnesses, and 
we will begin with you, Mr. Mefford.
    Mr. Mefford. Thank you again, Mr. Chairman and all members 
of the committee, Ranking Member Upton. The bottom line of the 
ConnectKentucky model is that it is a mission-driven approach 
that is comprehensive in nature. It accounts for mapping and 
data collection to impact both supply and demand of broadband 
availability and so with a mission to fill the gaps and the 
mission to increase take rates, we use that to drive the 
policies and the programs of ConnectKentucky, and again the 
outcomes sort of bear out the merits of the model.
    Mr. Markey. Hold on just one second. That bell means that 
we have 15 minutes to vote, and there will be one vote that 
will then be followed by a second vote, which will be the final 
passage of the legislation which we are considering on the 
floor, which is the Defense bill, but please continue again, 
Mr. Mefford.
    Mr. Mefford. Thank you, Mr. Chairman. I will close with the 
key point that the public-private nature of ConnectKentucky has 
been critical to the success and that structure allows a degree 
of flexibility that allows us to address market realities on 
both the supply and demand side at a very local and granular 
level, and so I would encourage the Chair, the committee, to 
consider this. I commend you again for the work on this draft, 
and we look forward to supporting your work going forward.
    Mr. Markey. Thank you.
    Mr. Ford.
    Mr. Ford. There are four things that have struck me today 
as I have listened to the testimony and the questions. One is, 
I can do about eight pages in 5 minutes. The other is that all 
of broadband providing a service that allows someone with M.S. 
to work from home and be with their children and be a 
productive member of our economy or to download entertainment 
and turn the computer into a television set, if we start 
focusing on high download speeds for entertainment purposes, we 
are missing the true benefit of broadband, which is allowing 
people to contribute to the economy, and I think that is very 
important to remember. The other point is, if you don't collect 
200-kilobit data in this mapping project, you are not going to 
know how bad the FCC's data was. You are going to be comparing 
apples to oranges again. I think that is worth looking into. 
And third, the goal of ConnectKentucky and I think the goal of 
any program like this is 100 percent availability or close to 
100 percent availability of broadband service. I don't know 
that looking at Sweden and Iceland says anything about that. We 
have a goal, 100 percent. That is our target, not what Japan is 
doing, not what Sweden is doing and not what the U.K. is doing 
but what we want, which is universal coverage. Thank you.
    Mr. Markey. Thank you.
    Mr. McCormick.
    Mr. McCormick. Mr. Chairman, we think a map makes a lot of 
sense. We fully support it. Number 2, we think the more 
comprehensive the map, the better it is, so we think that it 
should map all broadband take rates, all service providers. 
Three, draw upon what works with public-private partnerships in 
putting together the map, and finally, the best data available 
may not come from ZIP codes. Let us look for gathering it in a 
way that is the best data available.
    Mr. Markey. Thank you.
    Mr. Largent.
    Mr. Largent. Mr. Chairman, I would just say that CTIA and 
the wireless providers support what you are trying to do. We 
would just say that there are three things that we would offer 
as changes. That would be to count all broadband from 200 
kilobits and above, that carriers provide their own coverage 
map. We are providing those maps now. NTIA can then manipulate 
the data however they would like to through ZIP code, census 
tract or any other useful measure, and the data collection 
should be done at the Federal level, not the State level.
    Mr. Markey. Thank you, Mr. Largent.
    Mr. McSlarrow.
    Mr. McSlarrow. Mr. Chairman, thank you for your leadership 
on this issue. I think as others have said, I think we would 
urge you to focus on doing the most comprehensive inventory you 
can really with a goal toward leveraging that information to 
identify those areas that are unserved or underserved so that 
you as policymakers, whether it is with Government help or 
public-private partnerships, can identify those areas and 
figure out how we can expand broadband connectivity to all 
Americans. Thank you.
    Mr. Markey. I thank you, Mr. McSlarrow.
    Mr. Scott.
    Mr. Scott. Mr. Chairman, Mr. Ranking Member, from a 
consumer perspective, it is a good bill, a good idea. It is 
high time that we did it. Looking at the broadband data that we 
have today, we can see we have some problems, but the data is 
not detailed enough for us to figure out how to best solve 
those problems. We need data down to the neighborhood, town and 
city level in order to evaluate the true state of availability 
and the true state of adoption, not just by technology but also 
by speed and price. It will help us to close the gaps, and it 
will help us to raise penetration rates. We also need to use 
that data to target direct investment, enhance competition and 
create programs that encourage people to subscribe to broadband 
by getting them the equipment and the training that they need. 
This bill will help us also assess the long-term trends, which 
will help us get back on top of the world in broadband. I think 
it is a good move, and we look forward to working with the 
committee.
    Mr. Markey. I thank you, Mr. Scott, very much.
    Mr. Cohen.
    Mr. Cohen. Thank you. One, mapping, it is a good idea. We 
support the draft. Two, the global perspective does matter. It 
is about economic development worldwide. Competitiveness 
matters. It is critical in rural economic development what the 
speeds are. We are off the chart. We need to get back on. 
Three, price matters, and being able to understand the price of 
speed matters as well. And fourth, goals matter, and this 
committee setting goals, it is a moving target. It is nothing 
to be frustrated by. The speeds need to go up. The 
affordability needs to go up. The universality needs to go up 
as the years go on. Thank you.
    Mr. Markey. Thank you, Mr. Cohen, very much, and we thank 
each one of the panelists. Unfortunately, because of these roll 
calls, some of the Members who had evinced enormous interest in 
this subject have not had an opportunity to question the panel, 
and I am going to make a unanimous consent request that those 
Members be allowed to submit written questions to the 
witnesses, and I would ask that the witnesses respond in a 
timely fashion to those questions. Because of the press of 
business in the Congress for the rest of the afternoon, 
unfortunately I will have to adjourn the hearing at this time 
with my apologies to the other committee members.
    My request to the panelists is that you stay close to the 
subcommittee on this subject. You can obviously pick up the 
level of interest that exists in this subject. We would like to 
pass legislation, have it make sense, have constructive 
suggestions included in the final draft of the legislation that 
we consider before the subcommittee. I don't think we could 
have put together a more expert panel to open the discussion. 
We thank the State of Kentucky for being the national leader on 
this and the inspiration for the legislative discussion which 
we are having.
    And with that, this hearing is adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T1644.065
    
    [GRAPHIC] [TIFF OMITTED] T1644.066
    
    [GRAPHIC] [TIFF OMITTED] T1644.067
    
    [GRAPHIC] [TIFF OMITTED] T1644.068
    
    [GRAPHIC] [TIFF OMITTED] T1644.069
    
    [GRAPHIC] [TIFF OMITTED] T1644.070
    
    [GRAPHIC] [TIFF OMITTED] T1644.071
    
    [GRAPHIC] [TIFF OMITTED] T1644.072
    
    [GRAPHIC] [TIFF OMITTED] T1644.073
    
    [GRAPHIC] [TIFF OMITTED] T1644.074
    
    [GRAPHIC] [TIFF OMITTED] T1644.075
    
    [GRAPHIC] [TIFF OMITTED] T1644.081
    
    [GRAPHIC] [TIFF OMITTED] T1644.082
    
    [GRAPHIC] [TIFF OMITTED] T1644.076
    
    [GRAPHIC] [TIFF OMITTED] T1644.077
    
    [GRAPHIC] [TIFF OMITTED] T1644.078
    
    [GRAPHIC] [TIFF OMITTED] T1644.079
    
    [GRAPHIC] [TIFF OMITTED] T1644.080
    
    [GRAPHIC] [TIFF OMITTED] T1644.083
    
    [GRAPHIC] [TIFF OMITTED] T1644.084
    
    [GRAPHIC] [TIFF OMITTED] T1644.085
    
    [GRAPHIC] [TIFF OMITTED] T1644.086
    
    [GRAPHIC] [TIFF OMITTED] T1644.087
    
    [GRAPHIC] [TIFF OMITTED] T1644.088
    
    [GRAPHIC] [TIFF OMITTED] T1644.089
    
    [GRAPHIC] [TIFF OMITTED] T1644.090
    
    [GRAPHIC] [TIFF OMITTED] T1644.091
    
    [GRAPHIC] [TIFF OMITTED] T1644.092
    
    [GRAPHIC] [TIFF OMITTED] T1644.093
    
    [GRAPHIC] [TIFF OMITTED] T1644.094
    
    [GRAPHIC] [TIFF OMITTED] T1644.095
    
    [GRAPHIC] [TIFF OMITTED] T1644.096
    
    [GRAPHIC] [TIFF OMITTED] T1644.097
    

</pre></body></html>
